<html>
<title> - EPA VS. AMERICAN MINING JOBS: THE OBAMA ADMINISTRATION'S REGULATORY ASSAULT ON THE ECONOMY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                                 

 
  EPA VS. AMERICAN MINING JOBS: THE OBAMA ADMINISTRATION'S REGULATORY 
                        ASSAULT ON THE ECONOMY

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 10, 2013

                               __________

                           Serial No. 113-47

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
       
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      
				_____________
				
				
		U.S. GOVERNMENT PRINTING OFFICE
85-146 PDF              WASHINGTON : 2014		

_______________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bed9ced1feddcbcdcad6dbd2ce90ddd1d390">[email&#160;protected]</a>  








                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Rauul R. Labrador, ID                Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Mark E. Amodei, NV                   Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Chris Stewart, UT                    Vacancy
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
                RUSH HOLT, NJ, Ranking Democratic Member

Louie Gohmert, TX                    Steven A. Horsford, NV
Rob Bishop, UT                       Matt Cartwright, PA
Robert J. Wittman, VA                Jim Costa, CA
Paul C. Broun, GA                    Niki Tsongas, MA
John Fleming, LA                     Jared Huffman, CA
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Cynthia M. Lummis, WY                Tony Caardenas, CA
Dan Benishek, MI                     Rauul M. Grijalva, AZ
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Joe Garcia, FL
Bill Flores, TX                      Vacancy
Mark E. Amodei, NV                   Vacancy
Chris Stewart, UT                    Vacancy
Steve Daines, MT                     Peter A. DeFazio, OR, ex officio
Kevin Cramer, ND
Doc Hastings, WA, ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 10, 2013.......................     1

Statement of Members:
    DeFazio, Hon. Peter a Representative in Congress from the 
      State of Oregon............................................     6
        Prepared statement of....................................     8
    Holt, Hon. Rush a Representative in Congress from the State 
      of New Jersey..............................................     4
        Prepared statement of....................................     5
    Lamborn, Hon. Doug a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Fogels, Edmund, Deputy Commissioner, Alaska Department of 
      Natural Resources..........................................     9
        Prepared statement of....................................    11
    Hamilton, Chris, Senior Vice President, West Virginia Coal 
      Association................................................    21
        Prepared statement of....................................    22
    Maier, Sheldon, President, Fortymile Mining District.........    18
        Prepared statement of....................................    19
    Van Vactor, Norman, Chief Executive Officer, Bristol Bay 
      Economic Development Corporation...........................    24
        Prepared statement of....................................    26

Additional Materials Submitted for the Record:
    Kile, Linda, Prepared statement of...........................    29
    List of documents submitted for the record retained in the 
      Committee's official files.................................    49
    Trout Unlimited, Arlington, VA, Steve Moyer, Vice President 
      for Government Affairs, Letter submitted for the record 
      Representative Holt........................................    34
    Tsongas, Hon. Niki a Representative in Congress from the 
      State of Massachusetts, Prepared statement of..............    49
                                     



     OVERSIGHT HEARING ON: EPA VS. AMERICAN MINING JOBS: THE OBAMA 
           ADMINISTRATION'S REGULATORY ASSAULT ON THE ECONOMY

                              ----------                              


                       Thursday, October 10, 2013

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 1:07 p.m., in 
room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.

    Present: Representatives Lamborn, Gohmert, Fleming, 
Benishek, Flores, Daines, Cramer, Holt, Horsford, Tsongas, 
Huffman, Lowenthal, Garcia, and DeFazio.
    Also Present: Representative Young of Alaska.

    Mr. Lamborn. The committee will come to order. The Chairman 
notes the presence of a quorum, which, under Committee Rule 
3(e), is two Members. The Subcommittee on Energy and Mineral 
Resources is meeting today to hear testimony on an oversight 
hearing titled, ``EPA vs. American Mining Jobs: the Obama 
Administration's Regulatory Assault on the Economy.''
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee. We will 
also hear from the Chairman or Ranking Member of the Full 
Committee, if they are here, and I believe that will be the 
case for at least one of those gentlemen.
    However, I ask unanimous consent to include any other 
Members' opening statements in the hearing record, if submitted 
to the Clerk by close of business today.
    [No response.]
    Mr. Lamborn. Hearing no objection, so ordered.
    Also, I ask unanimous consent that Representative Don Young 
of Alaska be allowed to participate in today's hearing.
    [No response.]
    Mr. Lamborn. Hearing no objection, so ordered.
    I now recognize myself.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Last year, we held a hearing on EPA's 
retroactive veto of the Spruce Coal Mine in Logan County, West 
Virginia, in 2010. That same year, EPA, at the request of six 
federally recognized Tribes and commercial fishermen, initiated 
a watershed assessment of the Bristol Bay watershed in 
southeastern Alaska, in an effort to derail the development of 
the world's largest known hardrock mineral resource: in 
essence, an effort to preemptively veto mining across a whole 
region of Alaska.
    The watershed assessment covered an area the size of West 
Virginia, more than 24,000 square miles, and was designed to 
reach an outcome that the entire region is unsuitable for 
mining. The assessment was severely criticized by a panel of 
scientists appointed by EPA to review the document.
    Meanwhile, in Chicken, Alaska, an EPA SWAT team of heavily 
armed and armored agents conducted ``paperwork'' inspections on 
small mining operations in what appears to be nothing more than 
an effort to intimidate and scare hard-working Americans.
    This hearing is about the story of how one agency, the 
Obama administration's EPA, can single-handedly decide to 
retroactively pull permits or prospectively veto any operations 
in areas the size of States and, at the same time, use armed 
SWAT teams to review permits. All combined, this agency is 
responsible for destroying 4,000 coal mining jobs between 2011 
and 2012, crippling local and State economies, increasing our 
dependence on foreign sources of minerals, and increasing 
energy costs for all Americans, seemingly all without 
consequence.
    At the heart of this issue is the lack of confidence in 
permitting by the Federal Government. If, without cause, an 
agency can retroactively veto issued permits, or prospectively 
veto permits not applied for, then how can any company, 
contractor or concessionaire, have confidence to invest in 
America, when their permit is not worth the paper it is written 
on?
    And I am not talking just about permits required by the 
mining industry. The Army Corps of Engineers issues an average 
of about 60,000 permits annually under the section of the Clean 
Water Act in question for all types of businesses and 
industries, including road and highway construction, and 
commercial and residential real estate. All industries are in 
danger if the Supreme Court allows the retroactive veto of the 
Spruce Mine permit to stand.
    It gets worse. In 2009, the EPA asked the Navajo Nation 
permission to withdraw the permit issued in the Desert Rock 
Energy plant. That $4 billion investment would have created 
thousands of jobs, generating tens of millions in revenues for 
the Navajo Nation, and created the infrastructure for a broad 
expansion of solar power across Navajo lands. One added bonus 
would have been the electrification of a broad section of the 
Navajo Nation, where people currently live without electricity. 
But that permit, after being issued, was withdrawn by the EPA 
for review. Needless to say, it has never been reissued, down 
to this day.
    The Obama administration's ``war on coal'' can be felt 
throughout the country, from Logan County, West Virginia, to 
Farmington, New Mexico. Now it has seemingly expanded to an 
all-out war on mining jobs, threatening workers from Chicken, 
Alaska to Superior, Arizona.
    Americans deserve better from the EPA. There is no excuse 
for conducting armed raids on family owned businesses to look 
for minor permit violations. Retroactively and prospectively 
vetoing permits, destroying high-paying family wage jobs, 
adversely affecting government economies, and making Americans 
more dependent on foreign sources of mined materials should not 
be the hallmark of President Obama's policy.
    It has been said by someone within the agency that the 
EPA's job is to crucify American industry, to bring them to 
heel. From armed raids to random permitting conditions and 
arbitrary permitting, it appears they are doing their best.
    I look forward to hearing from our witnesses today who 
have, unfortunately, been the victims, in some cases, of this 
administration.
    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                      Energy and Mineral Resources
    Last year we held a hearing on EPA's retroactive veto of the Spruce 
Coal Mine in Logan County, West Virginia in 2010. That same year EPA, 
at the request of six federally recognized Tribes and commercial 
fishermen, initiated a `watershed assessment' of the Bristol Bay 
watershed in Southeastern Alaska in an effort to derail the development 
of the world's largest known hardrock mineral resource--in essence an 
effort to preemptively veto mining across a whole region of Alaska.
    The watershed assessment covered an area the size of West Virginia, 
more than 24,000 square miles, and was designed to reach an outcome 
that the entire region is unsuitable for mining. The assessment was 
severely criticized by a panel of scientists appointed by EPA to review 
the document.
    Meanwhile, in Chicken, Alaska, an EPA SWAT team of heavily armed 
and armored agents conducted ``paperwork'' inspections on small mining 
operations in what appears nothing more than an effort to intimidate 
and scare hardworking Americans.
    This hearing is the story of how one agency--the Obama 
administration's EPA--can single-handedly decide to retroactively pull 
permits, or prospectively veto any operations in areas the size of 
States, and at the same time use armed SWAT teams to review permits. 
All combined this agency is responsible for destroying 4,000 coal 
mining jobs between 2011 and 2012, crippling local and State economies, 
increasing our dependence on foreign sources of minerals, and 
increasing energy costs for all Americans--seemingly all without 
consequence.
    At the heart of this issue is the lack of confidence in permitting 
by the Federal Government. If without cause an agency can retroactively 
veto issued permits or prospectively veto permits not applied for, then 
how can any company, contractor or concessionaire have confidence to 
invest in America when their permit is not worth the paper it is 
written on? And I'm not talking just about permits required by the 
mining industry.
    The Army Corps of Engineers issues on average about 60,000 permits 
annually under the section of the Clean Water Act in question for all 
types of businesses and industries including road and highway 
construction, and commercial and residential real estate. All 
industries are in danger if the Supreme Court allows the retroactive 
veto of the Spruce Mine permit to stand.
    At some point in time one has to wonder what the EPA and the 
administration have against Alaska, and the Appalachian basin, and 
American coal miners in general, but their attacks on the Navajo Nation 
are well documented as well.
    In 2009, the EPA asked the Navajo Nation permission to withdraw the 
permit issued to the Desert Rock Energy Plant. That $4 billion 
investment would have created thousands of jobs, generated tens of 
millions in revenues for the Navajo Nation, and created the 
infrastructure for a broad expansion of solar power across Navajo 
lands. One added bonus would have been the electrification of a broad 
section of the Navajo Nation where people currently live without 
electricity. But that permit, after being issued, was withdrawn by the 
EPA for review, needless to say, it has never been reissued.
    The Obama administration's ``war on coal'' can be felt throughout 
the country, from Logan County, West Virginia to Farmington, New 
Mexico. Now it has seemingly expanded to an all-out ``war on mining 
jobs'' threatening workers from Chicken, Alaska, to Superior, Arizona.
    Americans deserve better from the EPA. There is no excuse for 
conducting armed raids on family owned businesses to look for minor 
permit violations. Retroactively and prospectively vetoing permits, 
destroying high-paying family wage jobs, adversely affecting government 
economies, and making Americans more dependent on foreign sources of 
mined materials should not be the hallmark of the President Obama's 
policy.
    It has been said that the EPA's job is to crucify American 
industry, to bring them to heel. From armed raids to random permitting 
conditions, it appears they are doing their best. I look forward to 
hearing from our witnesses today who have often been the victims of 
this administration.

                                 ______
                                 

    Mr. Lamborn. I now recognize the Ranking Member for his 
opening statement.

 STATEMENT OF THE HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Dr. Holt. Thank you, Mr. Chairman. I think it is 
unfortunate that the Environmental Protection Agency is unable 
to be here today to present its side of the story. I think it 
is even more unfortunate that this Republican-led government 
shutdown has resulted----
    Mr. Young. Will the gentleman yield? Let's just get on with 
this hearing, and quit the politics.
    Dr. Holt [continuing]. Has resulted in the Environmental 
Protection Agency not being out in the field protecting our 
air, protecting our water, ensuring that America's most toxic 
waste sites are properly cleaned up.
    I would say, Mr. Chairman, and to the other members of the 
committee, I think it is completely appropriate in this 
committee that we talk about what the government should be 
doing. And so I think that some of my friends on the other side 
may be pleased at the shutdown's effect, especially those who 
voted 38 times during the 112th Congress to dismantle the Clean 
Water Act and other environmental protections. But certainly 
the families that rely on clean air and safe drinking water and 
unpolluted lands are less appreciative of the efforts to shut 
down the government and defund the EPA.
    If the EPA were here, they would be able to directly refute 
the implications of this hearing, I think. We will wait to see 
how that goes. But I think the facts should be allowed to speak 
for themselves.
    Mining employment is up, and keeps going up. According to 
the Bureau of Labor Statistics, which is also shut down, there 
were over 5,000 additional coal mining jobs in 2012 than there 
were 4 years earlier, a 7 percent increase. There were also 
5,000 additional metal or mining jobs in 2012 than 4 years 
earlier, a significant increase. In fact, the Bureau of Labor 
Statistics reports that there are more mining jobs during the 
current administration than there have been in the past 15 
years.
    Now, since a major focus of this hearing is the situation 
in Alaska, I think it is worth noting that mining employment in 
Alaska is up 34 percent since 2008. It has more than doubled 
since 2004. It is hard to argue with numbers like that.
    I do want to thank the witnesses for being here today, 
particularly given the long distances you have traveled, and 
the fact that you can't visit the museums and other things here 
in Washington on this visit. I particularly want to welcome Mr. 
Van Vactor, former seafood processor and CEO of Bristol Bay 
Economic Development Corporation.
    Coming from New Jersey, I understand the huge importance of 
fishing to an economy. The commercial and recreational fishing 
industries in New Jersey bring in over $8 billion in sales, and 
support 54,000 jobs. But, as important as fishing is to my own 
State, that doesn't even begin to describe the importance of 
fishing to Bristol Bay watershed, where it is, well a good 
metaphor, the lifeblood of the community.
    Bristol Bay's salmon fisheries contribute $1.5 billion in 
economic value, and provide half of all the sockeye salmon in 
the world. The salmon sustains the way of life for Native 
American tribes throughout the region, and it is one of the 
staples of their diet. So, any negative impacts on the salmon 
fishery could be harmful to the economy and to the heritage of 
the area.
    It is my belief that the Bristol Bay watershed is too 
important and too fragile to allow a massive open-pit mine, 
industrializing the landscape, and creating long-term waste 
management challenges. And I think it would put into jeopardy 
the way of life of dozens of native villages and native 
residents. And it would threaten fishing jobs and harm a 
pristine ecosystem.
    It is why I believe that it is appropriate for the EPA to 
carefully study the impacts of the large-scale mining in the 
region to see if I am right. I told you what I think. I would 
like to be sure that we get the facts from EPA. Their peer-
reviewed scientific watershed assessment is designed to fill 
gaps in the science and to look at the potential consequences 
of moving forward with a mine.
    EPA has yet to take the first steps required to initiate 
any restriction under the Clean Water Act, but the Bristol Bay 
watershed, I think, should be studied. We should look at the 
science. And efforts to portray the EPA's enforcement as an 
attack on mining, I think, are misguided.
    I look forward to the testimony. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Holt follows:]
     Prepared Statement of the Hon. Rush D. Holt, Ranking Member, 
              Subcommittee on Energy and Mineral Resources
    Thank you, Mr. Chairman.
    I think it's unfortunate that the Environmental Protection Agency 
is unable to be here today to present its side of the story. I think 
it's even more unfortunate that because of this Republican-led 
government shutdown, the Environmental Protection Agency isn't out in 
the field protecting our air, protecting our water, and ensuring that 
America's most toxic waste sites are cleaned up properly.
    I think some of my friends from the other side may be pleased at 
the shutdown's effect on the EPA, especially those who voted 38 times 
during the 112th Congress to dismantle the Clean Water Act, but 
certainly the families that rely on clean air, safe drinking water, and 
unpolluted lands are less appreciative of efforts to shut down the 
government and defund the EPA.
    If the EPA were here, they'd be able to directly refute the dual 
implications of this hearing: that they are somehow opposed to mining 
jobs, and that mining jobs are disappearing. Because the facts speak 
otherwise. Mining employment is up, and keeps going up. According to 
the Bureau of Labor Statistics--which, I might add, is also shut down 
because of this Republican House--there were over 5,000 additional coal 
mining jobs in 2012 than there were in 2008, a 7 percent increase. 
There were also 5,000 additional metal ore mining jobs in 2012 over 
2008, a 13 percent increase. In fact, the BLS reports that there are 
more mining jobs during the Obama administration than there have been 
in 15 years.
    Since a major focus of this hearing is on the situation in Alaska, 
it's worth noting that mining employment in Alaska is up a staggering 
34 percent since 2008, and has more than doubled since 2004. It is hard 
to argue with a straight face that somehow the EPA or this 
administration is carrying out a, quote, regulatory assault on mining. 
That simply does not match the facts.
    I'd like to thank all the witnesses for being here today, 
particularly given the great distances many of you traveled, and the 
fact that you were willing to come to Washington, DC, at a time when 
some of our best tourist attractions, such as the Smithsonian, are 
closed.
    I'd like to particularly welcome Mr. Van Vactor, a former seafood 
processor and now CEO of the Bristol Bay Economic Development 
Corporation, which represents the commercial and recreational fishing 
interests of Bristol Bay.
    Coming from New Jersey, I understand the huge importance of fishing 
to the economy. The commercial and recreational fishing industries in 
New Jersey bring in over $8 billion in sales, and support 54,000 jobs. 
But as critically important as fishing is to my own State, that doesn't 
even begin to describe the importance of fishing to the Bristol Bay 
watershed, where it is not an exaggeration to call it the lifeblood of 
the community.
    The Bristol Bay salmon fishery contributes $1.5 billion in economic 
value, and provides half of all the sockeye salmon in the world. But 
salmon also sustains the way of life for Native American tribes 
throughout the region. It is one of the staples of their subsistence 
diet, and it is the basis for their culture. Negative impacts on the 
salmon fishery could destroy their villages and their heritage.
    It is my belief that the Bristol Bay watershed is too important, 
and too fragile, to allow a massive open-pit mine that will 
industrialize the landscape, create extremely long-term waste 
management challenges, put the way of life of dozens of Native villages 
at risk, and threaten tens of thousands of fishing jobs that depend on 
a pristine ecosystem.
    That is why I believe it is altogether appropriate for the EPA to 
carefully study the potential impacts of large-scale mining in the 
region. Their peer-reviewed scientific watershed assessment is designed 
to fill gaps in the science, and look at the potential consequences of 
moving forward with a mine.
    While the EPA has yet to take the first steps required to initiate 
any restriction under the Clean Water Act, the fact is that when the 
company does submit its long-awaited permit application, if it ever 
does, the Bristol Bay Watershed Assessment will provide crucial science 
necessary to further analyze the impacts of a specific project.
    Efforts to portray the EPA's enforcement of the Clean Water Act as 
an attack on mining are flat-out misguided. Opponents of the EPA's 
actions can cherry-pick individual examples that they argue bolster 
their point, but the truth remains: mining jobs are up during the Obama 
administration, and the EPA remains committed to making sure that 
mining is done in a way that protects our air, our water, and our land.
    I look forward to the testimony of our witnesses and yield back the 
balance of my time.

                                 ______
                                 

    Mr. Lamborn. Thank you. Since the Full Committee Chairman 
is not here, we won't hear from him at the moment. If he comes 
later, we will do so.
    And in the meantime, I would like to hear from the Ranking 
Member of the Full Committee, Representative DeFazio of Oregon.

   STATEMENT OF THE HON. PETER DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. I appreciate the fact 
that we are meeting today in the midst of a government 
shutdown. We are taking testimony on an issue and an area upon 
which this committee has no jurisdiction, which would be the 
Environmental Protection Agency and the Clean Water Act. I do 
sit on the Transportation and Infrastructure Committee, which 
does have a good part of that jurisdiction. So, you know, 
hopefully, if there were real issues to be heard, the T&I 
Committee would be hearing them, about abuses of the 404 
permitting process.
    Second, Energy and Commerce also has jurisdiction, but this 
committee does not. So we are here today to stage a hearing.
    I heard some incredible hyperbole, no offense, Mr. 
Chairman, during the opening remarks. Armed SWAT teams? I am 
quite familiar with law enforcement. An armed SWAT team is a 
particular specialty, and they carry automatic weapons, 
longarms and other things. These were law enforcement agents of 
both the State of Alaska and the Federal Government entering 
onto Federal lands, and they were carrying holstered sidearms. 
That isn't a SWAT team raid. Now let's not get a little 
overboard here and say that somehow that constitutes a SWAT 
team. So, and it is routine for law enforcement officers to 
carry sidearms. And, you know, that has been blown out of 
proportion.
    Second, the issue of the 404 permits. Some people think 
that if you blow the top off of a giant mountain and you bury 7 
miles of a stream, that you are having some impact on water 
quality. Others don't. Hard to believe, but that is where the 
EPA acted retroactively to say, well, you know, maybe when the 
Bush administration said that blowing the top off this mountain 
and filling in 11 miles of stream had no consequence, you know, 
in Oregon you can't even drive through a stream in many places. 
You can't harvest timber approximate to a stream. These people 
were just going to fill them in. I guess then you don't have a 
stream any more, so you don't have to worry about the impacts. 
But a little bit odd to me.
    So, to say, gee, they acted somehow arbitrarily in this 
case is not true. This was a huge and immediate impact and an 
irrevocable impact. They are not going to put the stream in a 
culvert, they are not going to dig it up again. And it is going 
to cause leaching forever.
    And then, finally, on that topic, their actions were upheld 
by the D.C. Circuit Court. Again, this is all out of the 
jurisdiction of this committee, so we are having a, you know, a 
pretend hearing here on something that we can't do anything 
about. But, in any case, I would just like to lay out a few 
facts.
    And finally, Bristol Bay. You know Don and I are going to 
disagree over Bristol Bay and the potential impacts here. But 
you are looking at hundreds of thousands of tons of mining 
debris in the largest open-pit mine in North America that is 
somehow going to be sequestered forever and not have any impact 
on the fisheries in Bristol Bay, despite the fact that they 
would be mining immediately around a number of the major 
tributaries, and they would, in fact, disrupt some of the major 
tributaries.
    There has been some talk about, ``Oh, we will provide some 
other wetlands, and we will do this, and we will do that.'' You 
know, we are going to do geoengineering in order to destroy an 
environment that is perpetual and balanced and sustainable, and 
providing more than $1.5 billion a year of value throughout the 
economy of Alaska and the West Coast. This impacts fishers from 
my State, also.
    So, you know, this is a very real issue. The EPA put 
forward a draft report after some concerns. They pulled it 
back, they wrote another. It is still in peer review. We 
haven't heard the results yet. But they have not initiated a 
process, over which this committee has no jurisdiction, yet.
    So, that is why we are here today. You know, there are a 
few other real things out there. I have had timber sales in my 
district suspended. You know, all across the West, all the 
timber sales have been suspended on both BLM and Forest Service 
lands. The king crab fishing fleet is in port, because they 
can't get their quotas. Real economic impacts because of a war 
on government by the Republican Party. That is why we are here 
today.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. DeFazio follows:]
         Prepared Statement of Ranking Member Peter A. DeFazio
    I'm a bit amazed by this hearing that we're holding today, and not 
just because this is an issue that is outside of the jurisdiction of 
our committee. I'm amazed because the majority is trying to portray the 
EPA as engaging in some sort of ``war on mining'', when the real war on 
mining and jobs is currently being waged by the House Republican 
Majority through their misguided shutdown of the entire Federal 
Government.
    Instead of having Federal permit reviewers approving new mine plans 
and drilling permits, and instead of having Federal safety and health 
inspectors out there making sure that existing operations are being 
done properly, we have hundreds of thousands of employees sitting on 
their hands because of the antics of a House Republican Majority that 
wants to delay a health care law they don't like.
    For example, in 2012, the Bureau of Land Management approved over 
5,000 permits to drill oil and gas wells: that's roughly 100 permits 
each week. So that's 100 permits that have not been approved since the 
Republican shutdown started last Tuesday, and the number keeps going 
up.
    The longer this goes on, the more severe the impacts will be. Next 
week there was supposed to be an oil and gas lease sale in New Mexico--
but that has now been canceled. Two weeks from now there's one covering 
Montana, North Dakota, and South Dakota, and that one is in doubt as 
well. And it's a domino effect, with the shutdown keeping the 
government from preparing for future lease sales, resolving protests, 
and doing the environmental reviews necessary for new wells.
    The Republicans like to fantasize that this administration has some 
on-going war on fossil fuels, despite the increases in production, 
despite the increases in permits, despite the ongoing lease sales 
offering millions of acres each year. But their shutdown is making this 
fantasy a reality, grinding the entire Federal leasing and permitting 
system to a halt, and they have no one to blame but themselves.
    When it comes to the fantasy surrounding this particular hearing, I 
believe Ranking Member Holt has already pointed out the statistics 
about how mining jobs are up in this country across the board, for both 
coal mines and metal mines.
    So there's clearly no effort by the EPA, or this administration, to 
shut down mining in this country. Far from it. But what we have being 
discussed today is something that I don't think we had nearly enough of 
in the previous administration: taking a hard look at where mining is 
occurring, and making sure it's being done the right way.
    Bristol Bay deserves a particularly hard look. It is an important 
economic driver for both the State of Alaska and the entire Pacific 
Northwest: over 2,000 jobs in the State of Oregon depend on that 
fishery. Any activity there requires the best available science to 
assess the risks and evaluate the potential consequences, and I 
strongly support the EPA's efforts to gather that science on mining in 
that watershed.
    If EPA determines that there is no way to put a mine in this region 
without unacceptable water quality and fishery impacts, then that is 
not the right place for a mine. It's simply not worth the risk to the 
entire Bristol Bay fishing industry, the jobs that depend on it, and 
the entire way of life of dozens of Native villages.
    The EPA is right to be doing their watershed assessment, they're 
right to be taking a close look at mining impacts, and they're right to 
be holding miners accountable. I thank the witnesses for being here, 
and I look forward to their testimony. I yield back the balance of my 
time.

                                 ______
                                 

    Mr. Lamborn. Thank you. I would like to remind the 
gentleman that this committee does have oversight over mining. 
I will get you the language.
    We will now hear from our witnesses. I want to thank each 
of you for being here and appreciate the long distance that you 
have come, in some cases. Your written testimony will appear in 
full in the hearing record, so I ask that you keep your oral 
statements to 5 minutes.
    Our microphones are not automatic, so you have to turn them 
on when you are ready to begin.
    I will also explain how our timing lights work. When you 
begin to speak, our clerk will start the time and a green light 
comes on. After 4 minutes, a yellow light. After 5 minutes, the 
red light, and I would ask that you conclude at that time.
    So, I would like to now welcome to the table our four 
witnesses: Mr. Edmund Fogels, Deputy Commissioner, the Alaska 
Department of Natural Resources, the State of Alaska 
Representative to the Interstate Mining Compact Commission; Mr. 
Sheldon Maier--I hope I pronounced that correctly.
    Mr. Maier. Maier.
    Mr. Lamborn. Maier. Thank you for the correction, President 
of the Fortymile Mining District; Mr. Chris Hamilton, Senior 
Vice President of the West Virginia Coal Association; and Mr. 
Norman Van Vactor, Chief Executive Officer of the Bristol Bay 
Economic Development Corporation.
    Mr. Fogels, you may begin.

    STATEMENT OF EDMUND FOGELS, DEPUTY COMMISSIONER, ALASKA 
       DEPARTMENT OF NATURAL RESOURCES, STATE OF ALASKA 
      REPRESENTATIVE, INTERSTATE MINING COMPACT COMMISSION

    Mr. Fogels. Thank you, Mr. Chairman. I am Edmund J. Fogels, 
Deputy Commissioner of the Alaska Department of Natural 
Resources. I am here to testify on behalf of the State of 
Alaska and the 26 member States of the Interstate Mining 
Compact Commission. I thank you for the opportunity to bring to 
your attention some of the challenges that recent overreaching 
actions by the U.S. Environmental Protection Agency have 
created for mining States throughout the country.
    The institutional attitude of the Environmental Protection 
Agency demonstrated in the examples I will provide today needs 
to refocus on a more collaborative and respectful relationship 
with the States. We are hopeful that, through a careful 
oversight of you and your colleagues, this change will occur, 
and mining in the United States will continue to provide good 
jobs to our citizens, and valuable commodities to our 
industries in a manner that is consistent with the mission of 
EPA and, more importantly, the interest of our States in 
protecting human health and the environment.
    My primary message today is that State governments have 
developed effective and robust regulatory programs that should 
be relied on by Federal agencies, not overridden by them. When 
Federal agencies such as EPA seek to expand their mining 
regulation, they are often duplicating existing well-
functioning programs.
    There are three concrete examples of EPA overreach that I 
will share with you today.
    First, the EPA has been developing a watershed assessment 
of our Bristol Bay watershed, an area roughly the size of West 
Virginia. This assessment is in reaction to the proposed Pebble 
Mine. The issue for Alaska here is not the Pebble Mine, but the 
potential effective loss of all beneficial use of this massive 
area of State land, which was promised to the State as part of 
the Statehood Act, to help secure an independent economic 
existence for Alaska. This is a serious concern, as the area of 
the watershed assessment represents almost 10 percent of the 
State of Alaska's land holdings.
    This study could lead to the preemption of what really 
should happen here, a thorough environmental analysis of the 
project, once it is actually proposed, through the National 
Environmental Policy Act, whereby one of the Nation's largest 
EISs would undoubtedly be produced.
    And this study is flawed. It has no legal basis. It is 
based entirely on hypothetical mining activity, compounded by 
theoretical projects that may never develop. It ignores modern 
best practices, mitigation measures, and permit stipulations 
that would be required. The bottom line: no project would ever 
get permitted if it could not meet the requirements in multiple 
State and Federal permits.
    My second example is the EPA's attempt to displace 
successful State bonding programs for the hardrock mining 
sector pursuant to the Comprehensive Environmental Response 
Compensation and Liability Act, or CERCLA. Bonds are required 
to ensure that States can reclaim and remediate mines if a 
miner is unable to do so. And they are the financial 
cornerstone of environmental protection. The bond calculations 
are tremendously complex, and are the culmination of years of 
permitting efforts. The States have developed vast experience 
in administering these bonds, and EPA has stated that they will 
not grow their agency to duplicate this expertise.
    We understand that there may be legal sideboards within 
CERCLA. But States need to be a partner in resolving this. 
Above all, we should not gut effective State programs. Any 
rulemaking should be thoroughly vetted with State experts 
before release.
    Third is the increasing frequency of elevations requested 
by EPA when it does not agree with a 404 permitting decision, a 
decision that typically has been carefully and cooperatively 
made with other Federal and State agencies. Using the section 
404(q) of the Clean Water Act, and usually when EPA determines 
that a subject water body is an aquatic resource of national 
importance, EPA will elevate the decision to higher-level 
staff, causing significant delays. As there is no definite 
standard as to what might be an aquatic resource of national 
importance, it is very difficult for major projects to develop 
timelines that can predict how EPA's review will affect the 
project.
    It bears repeating that the primary theme of my testimony 
is that in all of these examples, the process would have gone 
much more smoothly if the States were consulted and respected 
as these Federal actions were developed. And we believe that 
the process would have gone smoother still if Alaska had 
primacy for its 404 permitting program. In fact, we are 
currently evaluating if we should pursue such primacy.
    Recently the EPA spearheaded an enforcement action against 
small miners in the Fortymile District of Alaska. My fellow 
Alaskan, Sheldon Maier, who is a miner in this district, is 
also going to testify before you today, so I will not delve 
into this issue. But I would like to say that the Federal 
agencies should defer to the State agencies to get the problems 
resolved before sending in the enforcement troops. We know what 
is happening on the ground, we know the miners, we know their 
plans of operation.
    In closing, I would like to emphasize that Federal 
regulators must respect the primary role and responsibility of 
the States in managing, administering, and protecting their 
lands and waters. This is clearly stated in the Clean Water 
Act.
    Thank you again for the opportunity to testify before you 
and your leadership. I would be happy to answer questions when 
the time is right.
    [The prepared statement of Mr. Fogels follows:]

  Prepared Statement of Edmund J. Fogels, Deputy Commissioner, Alaska 
 Department of Natural Resources on Behalf of the State of Alaska and 
                the Interstate Mining Compact Commission
                            i. introduction
    Chairman Lamborn, Ranking Member Holt, and members of the House 
Subcommittee on Energy and Mineral Resources--I am Edmund J. Fogels, 
Deputy Commissioner of the Alaska Department of Natural Resources (AK 
DNR). On behalf of Governor Sean Parnell, the State of Alaska thanks 
the Subcommittee for this opportunity to testify and express our 
support for your work to ensure that mining in the United States will 
continue to create wealth and provide for the Nation's mineral needs in 
the future without duplicative and overly burdensome Federal 
regulation. I have also been entrusted by the 26 member and associate-
member states of the Interstate Mining Compact Commission (IMCC) to 
convey their views to the Subcommittee today, and to express their 
gratitude for your leadership in this area.
    In particular, I thank you for the opportunity to bring to your 
attention some of the challenges that recent overreaching actions by a 
particular Federal agency--the Environmental Protection Agency (EPA)--
have created for mining states throughout the country. The 
institutional attitude of the EPA demonstrated in the examples I will 
provide today needs to refocus on a more collaborative and respectful 
relationship with the states. We are hopeful that, through the careful 
oversight of you and your colleagues, this change will occur and mining 
in the United States will continue to provide good jobs to our citizens 
and valuable commodities and raw materials to our industries in a 
manner that is consistent with the mission of the EPA, and, more 
importantly, the interests of our states in protecting human health and 
the environment.
Biographical Information
    Before getting into substantive matters, I would like to briefly 
mention my professional background as it pertains to this testimony and 
provide some information about the IMCC. I have been serving as Deputy 
Commissioner of AK DNR, a state agency of over 1,100 personnel, since 
December 2010. I have worked as a natural resource manager for the 
State of Alaska for over 25 years, including as a mining regulator and 
state/Federal mining permit coordinator. AK DNR is the largest non-
Federal land manager in the United States. In addition to Alaska's vast 
mineral resources, we manage one of the largest portfolios of oil, gas, 
water, timber, and renewable energy resources in the world. Our 
workforce is staffed by experts on responsible exploration and 
development that have years of experience with Alaska's unique 
environment.
    The IMCC, of which the State of Alaska became a full member this 
year, is a multi-state organization that represents the natural 
resource and related environmental protection interests of its member 
states. Twenty-one states have ratified their membership in the IMCC 
through acts of their respective state legislatures, and five others 
participate as associate members while they pursue enactment of state 
legislation ratifying their membership. A primary focus of the IMCC is 
liaising with Congress and the Federal government to promote a 
cooperative effort between state and Federal agencies in advancing 
responsible mining development and environmental protection.
Overview of Today's Testimony
    My primary message today is that state governments must be allowed 
to be an equal partner, and at times to take the lead, in regulating 
mining in their respective states. A healthy mining industry and 
environmentally sound natural resource development are important to 
Alaska and the member states of the IMCC, and are in the best interests 
of the United States. Responsibly developing our mineral resources 
benefits our citizens and the country as a whole. To make this happen, 
we need cooperation rather than frustration from Federal agencies such 
as the EPA. The states have developed effective and robust regulatory 
programs that should be relied on by Federal agencies, not overridden 
by them.
    States have been a central part of bringing about the modern era of 
mining regulation and environmental protection, and these processes 
have been very effective at correcting past mistakes. When Federal 
agencies, such as the EPA, seek to expand their mining regulation they 
are often duplicating existing, well-functioning programs. This 
duplication is not only inefficient, but it has real costs to the 
states and their residents who work to responsibly develop and protect 
natural resources. The states' familiarity with the specifics of their 
respective local mining industries is irreplaceable, and Federal 
agencies must recognize the states' role in representing their 
citizens' economic and environmental interests.
    The examples of ongoing processes that are negatively affecting the 
State of Alaska and the IMCC member states that I will describe today 
illustrate how Federal overreach can create uncertainty, increase cost, 
and cause delay for mining investment. These are also all examples 
where well-functioning state processes have been duplicated or 
disregarded. To solve this problem, Federal regulators must:
    First, respect the primary role and responsibility of the states in 
managing, administering, and protecting their lands and waters. This 
role is grounded in the states' position as sovereign entities in the 
system of federalism recognized in the U.S. Constitution, and has been 
unequivocally acknowledged many times by Congress. For example, the 
Clean Water Act--one of the primary Federal environmental statutes the 
EPA is tasked with administering--clearly states: ``It is the policy of 
Congress to recognize, preserve, and protect the primary 
responsibilities and rights of the states to prevent, reduce, and 
eliminate pollution, to plan the development and use (including 
restoration, preservation, and enhancement) of land and water 
resources, and to consult with the Administrator in the exercise of his 
authority under this chapter.'' \1\
---------------------------------------------------------------------------
    \1\ 33 U.S.C. Sec. 1251(b) (emphasis added).
---------------------------------------------------------------------------
    Second, respect the experience and expertise of state agencies who 
are often much more familiar than Federal regulators with the 
particular circumstances and needs in their communities. States may be 
able to craft more practical solutions to challenges if their roles are 
not displaced by rigid Federal processes that do not take into account 
state experience and expertise. In short, states are more likely to be 
problem solvers, looking for and finding solutions that work well for 
their environment and their economy.
    Last, defer to, and build on, the successful programs that are 
already in place. New programs do not need to be built from the ground 
up at the Federal level, as this will duplicate many of the well-
functioning processes that are established and well-managed by the 
states. This will ensure that the expertise of both the states and of 
other Federal agencies can be used efficiently. Collaboration with and 
support for state programs should be the focus of new Federal 
initiatives.
ii. mining, under modern standards and regulations, is critical to our 
                                 states
    I know that the Subcommittee is very familiar with the numerous 
benefits that are associated with U.S. mining, so I will only quickly 
outline them to give a foundation to the issues of state primacy that 
my testimony focuses on. Bottom line--mining is critical to the 
economic, social, and security interests of our states and the Nation 
as a whole. When companies, including the many small businesses that 
participate in American mining, invest in mineral exploration and 
development in the United States it brings high-paying, technical jobs 
back to our country. Many times, especially in a state like Alaska, 
these investments and developments occur in rural areas and bring 
economic opportunities and social benefits to our citizens that are 
otherwise not widely available. Domestic mining also brings secure 
domestic supplies of important resources--for example: coal and uranium 
for energy security, iron for industrial production, and gold and other 
metals for modern high-tech applications. We are in a global 
competition for these resources--for secure supplies to meet our 
demands, and for the investment that drives employment and development 
in our states.
   iii. mining regulation is local, and should remain primarily the 
                      responsibility of the states
    The issues we are discussing today are certainly global and 
national, but they are also local. Environmental protection benefits 
those who live in the protected environment. Clear and general 
standards, enforced by objective regulators, have to be applied to 
specific situations in specific locations. This is why the State of 
Alaska focuses so intently on maintaining high standards for 
environmental protection--so many of our citizens, whom our state 
government has a Constitutional responsibility to represent, regularly 
utilize Alaska's environment. Many areas of Alaskan life, from 
traditional subsistence lifestyles to local recreation to our robust 
tourism industry, are dependent on protecting our fish, wildlife, 
water, and land from degradation.
    This is also why Alaska, and the members of the IMCC, recognize 
that a well-regulated mining industry brings real, local benefits to 
our residents. The most frequently cited and clearly illustrative 
example in Alaska is the Red Dog Mine in the Northwest Arctic Borough. 
This project brings hundreds of jobs to this remote region, and 
provides the Borough's only source of tax income. In partnership with 
the regional Alaska Native Corporation (NANA, Inc.), this mine has 
generated hundreds of millions of dollars of economic activity in the 
region and is far and away the region's largest employer. When these 
kinds of mining projects are delayed or deferred due to Federal 
overreach and permitting delays, it means that local residents do not 
have access to employment opportunities, and social programs in rural 
areas have limited funding. As commodity markets are dynamic, delayed 
projects may miss windows of opportunity. This stretches a 1 or 2 year 
permitting delay into potentially decades before communities see 
projects move forward. When projects are abandoned altogether, it means 
economic and social opportunities they could have provided in our 
states are completely lost.
    Local affects, both positive and negative, are central reasons why 
mining regulation must preserve a strong role for the states. Federal 
resources and expertise should not be disregarded, but these complex 
regulatory activities must primarily rest with state regulators who are 
on the ground and who understand the full range of their respective 
states' interests. We need to reverse the tendency seen in the last 
several years to centralize agency decisionmaking in Washington, DC. In 
this regard, I would like to submit for the record a resolution 
concerning the states' federalism concerns that was recently adopted by 
IMCC which further expands on our concerns and recommendations 
regarding state and Federal relations. (Material submitted has been 
retained in Committee's official files.)
  iv. current state mining regulations and programs are effective and 
                            functioning well
    Mining can have impacts on the environment. Many of the laws that 
regulate mining today were passed to remedy the negative impacts that 
prior, unregulated mining had during the 1800s and early 1900s. State 
regulators can confidently say we have learned many lessons from these 
earlier projects. The same re-prioritization of environmental 
protection that motivated the passage of Federal laws such as the Clean 
Water Act (CWA) and the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA) in the 1970s and 1980s has 
also occurred in state government. Modern regulations and mining 
practices, with states functioning as the leading regulator in many 
areas, now successfully mitigate impacts associated with mining.
    This point is critical for our discussion today--there are not 
lapses or loopholes in today's environmental regulations. There is not 
a need for Federal regulators to displace existing state programs. 
Recent EPA initiatives to ratchet up their regulations are a solution 
without a problem. They usurp authority from the states, and, in some 
cases, from their own partners in other Federal regulatory agencies, 
while resulting in less-effective regulation.
v. epa overreach creates uncertainty, increases costs, and causes delay 
                              for projects
    There are three concrete examples of EPA overreach that I will 
share with you today, but this list is certainly not exhaustive. The 
administrative process within which these dialogs occur can be 
extremely detailed and technical, and this opacity works against 
effective oversight and readjustment of agency priorities. It bears 
repeating that the primary theme of my testimony is that all of these 
processes would have gone much more smoothly if the states were 
consulted and respected as these Federal actions were developed. We are 
hopeful that Congress will support the states in the future by 
reaffirming the call for state primacy supported by the U.S. 
Constitution and described in Federal law in your continued oversight.
The Bristol Bay Watershed Assessment--Uncertainty
    Since 2010 the EPA has been developing a ``watershed assessment'' 
of an area roughly the size of West Virginia in the Southwest of 
Alaska.\2\ After the short description of this rushed process that I 
will provide, it will be unquestionably clear that it has really 
accomplished only one thing--increased uncertainty in the regulatory 
framework for mining in the Bristol Bay region.
---------------------------------------------------------------------------
    \2\ Almost all of the lands in the assessment area are owned by the 
State of Alaska. Conversely, almost none of the lands are owned by the 
Federal government.
---------------------------------------------------------------------------
    Despite there being no clear basis in statute, regulation, or past 
practice for this kind of study,\3\ this new watershed assessment 
process has developed an unauthorized regulatory document, based on 
hypothetical mining activity in the region, to potentially support the 
unprecedented exercise of a preemptive CWA 404(c) veto by EPA. To be 
clear--the State of Alaska is not concerned that an attempt is being 
made to gather information in the region related to mining, or to 
ensure that the numerous valuable ecological resources in the sensitive 
Bristol Bay region are protected. With the watershed assessment, a 
Federal agency is creating new, ambiguous regulatory steps that exclude 
the state and duplicate the processes already put in place by existing 
state and Federal law. The state's biggest issue is not Pebble Mine--
but the potential effective loss of all beneficial use of this massive 
area of state land, which was promised to the state as part of the 
Statehood Act land entitlement to help secure an independent economic 
existence for Alaska and Alaskans. This is a serious concern, as the 
area of the watershed assessment represents almost 10 percent of the 
State of Alaska's land holdings.
---------------------------------------------------------------------------
    \3\ The watershed assessment has been conducted at a cost of over 
$2 million dollars. In the context of sequestration and serious Federal 
budget challenges, these are funds that the EPA has expended on a 
purely discretionary activity while letting mandatory responsibilities 
(i.e., approving state-proposed water quality standards) slide.
---------------------------------------------------------------------------
    Were a mining permit submitted for a project in the region, a duly 
authorized Federal regulatory document that is consistent with 
established law and the public participation process would have to be 
prepared. This would not be a watershed assessment but instead an 
Environmental Impact Statement (EIS) under the National Environmental 
Policy Act (NEPA). The latter process would also allow for the State of 
Alaska to participate as a cooperating agency, and have a formal role 
representing its interests in the process. An EIS must still be 
completed for any future development in the region, but it will likely 
be pre-determined by the amorphous regulatory action undertaken by the 
EPA in conducting the watershed assessment outside of the normal NEPA 
process.
    The EPA's multi-year, multi-million dollar assessment is also based 
entirely on hypothetical mining activity.\4\ Under the typical 
regulatory process, which will still have to occur for any future 
mining development in the Bristol Bay region regardless of EPA's 
actions stemming from the watershed assessment, a project proponent 
would be responsible for submitting a detailed mine plan to state and 
Federal regulators to review. If this mine plan did not comply with 
state mitigation and environmental protection laws, or did not receive 
appropriate Federal permits under the CWA, it would not be able to go 
forward. All of these decisions would be made based on specific 
proposals, rather than speculation and conjecture.
---------------------------------------------------------------------------
    \4\ The activity EPA evaluated in the watershed assessment was 
based in part on a non-technical investor document prepared in 2011 by 
an entity with a partial interest in the project to comply with 
Canadian financial disclosure requirements.
---------------------------------------------------------------------------
    Finally, a watershed assessment is not the manner in which the EPA 
is statutorily authorized to involve itself in a regulatory approval 
process under the CWA. While the EPA has not committed to do so, the 
State of Alaska has repeatedly raised the concern that EPA will use the 
assessment to claim it has authority to preemptively veto CWA section 
404 permits before they are issued or even applied for.\5\ The EPA does 
have the authority to veto CWA section 404 permits--if they are deemed 
to be insufficient after full review of the mining plan has taken 
place. The preemptive veto that the EPA has been urged to make would 
turn this process on its head and replace the statutory process called 
for under NEPA and the CWA with a process created on an ad-hoc basis by 
EPA outside of the Administrative Procedure Act (APA).
---------------------------------------------------------------------------
    \5\ Despite the fact that the watershed assessment was begun in 
response to a petition for a preemptive CWA 404(c) veto by private 
groups, the EPA has stated it ``will not address use of its regulatory 
authority until the assessment becomes final.'' However, EPA has 
acknowledged the watershed assessment will ``provide an important base 
of information'' for EPA to respond to the petition.
---------------------------------------------------------------------------
    The state has submitted many detailed comments and criticisms of 
the watershed assessment to the EPA, and my comments today are only a 
summary of these concerns. On this point, the take-away is that the EPA 
has obfuscated and duplicated the EIS/NEPA/CWA section 404 process in 
conducting its assessment--without involving the specifics of an actual 
project or the application of the state's processes. Ad-hoc regulatory 
steps that diminish the state's role are the opposite of how Federal 
agencies should be conducting their work.
CERCLA 108(b) Bonding--Costs
    The EPA's attempts to displace successful state bonding programs 
for the hard-rock mining sector pursuant to its authorities under the 
Comprehensive Environmental Response, Compensation and Liability Act 
(CERCLA) is another major concern to Alaska and the members of the 
IMCC. Despite the extensive expertise that state agencies have 
developed in the areas of bonding and reclamation, it is unclear how an 
EPA-administered hard-rock bonding program would incorporate this 
expertise or how it could affect these successful state programs.\6\ 
This is an example of the need for Federal agencies to respect and 
proactively consult with states on regulatory issues, rather than 
making us fight to provide information about the success of the 
programs we already have in place.
---------------------------------------------------------------------------
    \6\ As well as the successful bonding programs conducted by the 
Bureau of Land Management (BLM) in the Department of the Interior (DOI) 
and the United States Forest Service (USFS) in the Department of 
Agriculture (DOA).
---------------------------------------------------------------------------
    This process could have enormous negative impacts on the mining 
investment in the United States and our national interests by driving 
up capital costs. Reclamation bonds are capital commitments that 
companies must make to ensure cleanup and reclamation of mining 
activities are completed if the companies themselves go bankrupt or are 
unable to remediate their sites. Bonds are the financial cornerstone of 
environmental protection and are a cost that responsible operators must 
pay to receive mining permits. However, unsophisticated calculations by 
the EPA, uninformed by the vast experience of the states, would throw 
the bonding process severely out of balance. Excessive bonds do not 
make it more likely that a mine will be properly remediated, but they 
may prevent it from being developed entirely.
    The EPA's initiative to develop bonding requirements for hard-rock 
mines under CERCLA 108(b) dates back to 2009. In response to a suit 
brought by environmental non-governmental organizations (NGOs), a 
Federal district court in California found that the EPA had not 
complied with timelines in CERCLA to begin issuing bonding requirements 
for industrial activities that create a high risk of releasing 
hazardous materials into the environment, and ordered the EPA to begin 
doing so. In July 2009 EPA announced in the Federal Register that it 
would begin with hard-rock mining. This was in some ways a surprising 
decision, because EPA did not have any institutional expertise in 
bonding hard-rock mines. Successful state and Federal programs were 
already in place, and modern mitigation measures and reclamation have 
significantly decreased the risk of hazardous material releases 
associated with hard-rock mining.
    Many states raised questions and concerns about how the rulemaking 
was proceeding in 2010 and 2011. In this regard, I would like to submit 
for the record copies of resolutions recently adopted by IMCC and the 
Western Governors Association that address this matter in greater 
detail. (Material submitted has been retained in Committee's official 
files.) The State of Alaska understands that this rulemaking has been 
delayed by EPA's focus on its numerous other expansive regulatory 
undertakings, but may be reinitiated this year or next. If this 
rulemaking goes forward, the EPA should commit to deferring to state 
bonding programs and honoring their primary role of managing mining 
programs within their respective jurisdictions. Importantly, any 
rulemaking should be thoroughly vetted with state experts before its 
release so that EPA can benefit from their expertise regarding the 
content and implementation of the rule.
Aquatic Resources of National Importance (ARNIs)--Delay
    The final subject I will touch on today is the role the EPA has 
played in reviewing the work of other Federal permitting agencies, and 
delaying decisions that have been carefully and cooperatively made. 
Under section 404(q) of the CWA, EPA is directed to enter into a 
memorandum of agreement with the Army Corps of Engineers (Corps) to 
implement their shared responsibilities under CWA section 404. This 
memorandum lays out a process for escalating levels of review at both 
the EPA and the Corps when EPA believes a permit improperly addresses 
environmental concerns.\7\
---------------------------------------------------------------------------
    \7\ Ironically, this process culminates in a 404(c) veto action--
the same veto that the EPA's Bristol Bay watershed assessment is 
gathering a ``base of information'' for before any Corps permit 
application has even been submitted.
---------------------------------------------------------------------------
    Recently the EPA has been quick to escalate review of projects 
under the MOU. EPA documents indicate that in the first 20 years of the 
MOU, less than 20 permit cases were elevated in the entire country.\8\ 
One of these was an oil development project on the North Slope of 
Alaska in 2005. In the last 3 years two 404(q) letters have been sent 
in Alaska alone: in 2010 for a bridge built over the Tanana River by 
the Alaska Railroad, and just last month for a road being developed for 
a road near the native village of Nuiqsut on the North Slope.
---------------------------------------------------------------------------
    \8\ EPA 404(q) fact sheet: ``EPA has requested higher level of 
review by the Department of Army on 11 permit cases under the 1992 
404(q) MOA as of January 2011 . . . Eight (8) additional permit cases 
were elevated to EPA Headquarters.'' See http://water.epa.gov/type/
wetlands/outreach/upload/404q.pdf.
---------------------------------------------------------------------------
    The process in the MOU was ostensibly created to streamline the 
joint EPA and Corps review timeline for CWA permits, but in practice 
EPA ARNI concerns have been raised once details of the project have 
been extensively debated between the Corps, state regulators, and the 
project proponent. As there is no definite standard as to what might be 
an ARNI, it is very difficult for major projects to develop timelines 
that can predict how EPA's review will affect the project. Project 
proponents are pressured to accept changes sought by the EPA to 
preliminary Corps decisions in order to avoid the potential extended 
delay that a disagreement between the Federal agencies could entail.
 vi. epa's enforcement approaches reinforce the need for state primacy 
                          in mining regulation
    My fellow Alaskan Sheldon Maier from the 40-mile district in Alaska 
where the ``Chicken Raid,'' as it is being called, took place is also 
going to be testifying before you today, so I will only speak briefly 
about this incident and leave the details to him to describe. However, 
I will note that it demonstrates the over-zealousness that the EPA and 
other Federal agencies are applying to the enforcement of their 
environmental regulations. This kind of enforcement raises serious 
issues for all Alaskans who exercise their rights to use the state and 
federally managed lands and waters in Alaska, and especially for many 
of our miners. It also highlights the importance of having state 
regulators who know the details of operations as the primary lead on 
the programs that have such direct impacts on the state's citizens.
 vii. future epa overreach should be averted by state consultation on 
                         cwa jurisdiction today
    The EPA has recently released a draft document prepared for its 
Science Advisory Board (SAB) that has been informally titled the 
``connectivity study.'' \9\ This is a several hundred page report that 
documents the interconnection of most water in the entire United 
States, and will serve as the basis for an expansive EPA rulemaking 
that will likely dramatically increase CWA jurisdiction. The EPA has 
acknowledged as much, noting on its website that this report ``will 
provide the scientific basis needed to clarify CWA jurisdiction'' \10\ 
and listing the areas that the future rulemaking will generously 
exempt, such as ``artificial ornamental waters'' and ``artificially 
irrigated areas that would be dry if irrigation stops.''
---------------------------------------------------------------------------
    \9\ Formally titled: ``Connectivity of Streams and Wetlands to 
Downstream Waters: A Review and Synthesis of the Scientific Evidence 
(External Review Draft).'' See 78 Fed. Reg. 58,536 (Sept. 24, 2013).
    \10\ See EPA Report Information, available at http://cfpub.epa.gov/
ncea/cfm/recordisplay.cfm?deid=238345.
---------------------------------------------------------------------------
    The scope of CWA jurisdiction is absolutely critical to the 
management of land and water in every state throughout the country. It 
has been disputed for decades, including in multiple cases before the 
Supreme Court that have restricted EPA's prior interpretations of its 
authority. It is therefore absolutely critical that the states be 
extensively consulted during this rulemaking. Unfortunately, that isn't 
happening.
    While the connectivity study is currently out for public comment 
and is not yet finalized, the EPA has been developing its rulemaking in 
tandem with the study, which EPA states ``provide[s] the scientific 
basis needed'' to justify its development. Troublingly, a draft 
proposed rule has already been sent to the Office of Management and 
Budget (OMB) in the White House for interagency review. While the State 
of Alaska and many of the IMCC states have pushed for a formal 
rulemaking to clarify CWA jurisdiction, \11\ this undertaking should 
not be conducted without the detailed involvement of the states. 
Additionally, it should not be conducted before the states have been 
able to comment on and review the report providing the underlying 
scientific basis for the rulemaking.
---------------------------------------------------------------------------
    \11\ Rather than the potentially extra-legal attempts EPA initially 
pursued to make jurisdictional determinations through guidance 
documents that were not reviewed under the APA.
---------------------------------------------------------------------------
    Unfortunately, the states have been provided the same opportunity 
to comment on the connectivity study as the average member of the 
public. This disregards the clear direction of the CWA to consult with, 
and retain the primary role of, state governments in managing land and 
water use. For example, the State of Alaska--representing almost 20 
percent of the land mass of the United States--is not even featured in 
the maps in the connectivity study. There are no sections addressing 
its unique arctic environment or the complexities of permafrost. These 
kinds of omissions starkly illustrate the need to involve state 
regulators who know the specifics of their respective regions from the 
very beginning of these processes.
                           viii. the solution
    The problems I have discussed here today are difficult to solve. 
They will require a change in approach by Federal regulators to 
increase rather than decrease consultation with states when dealing 
with mining regulation. Unfortunately, expressions of Congressional 
intent language like that in the CWA are not always enough to stem 
Federal overreach. There must also be continued oversight and 
leadership from Congress and the executive branch to ensure that states 
are treated as partners in the critical process of environmental 
protection. The benefits of such a stronger state and Federal 
partnership will accrue to the whole Nation. Increased Federal 
efficiency will reduce both government expense and delays that affect 
projects. State primacy will ensure that all of the state's interests 
are represented in regulatory decisionmaking. Environmental protection 
can continue to be strengthened by Federal and state experts 
complimenting rather than duplicating each other's work.
    The states are ready to take up this partnership. The membership of 
26 states in the IMCC demonstrates this commitment, and provides an 
excellent venue for the further development of state and Federal 
partnerships in the area of mining regulation. In the future, the 
country as a whole may want to discuss broader solutions, including 
review of the CWA, CERCLA, and other environmental laws to ensure that 
the states' expertise can be more effectively put to work in these 
areas. For example, the Canadian process of devolving resource 
management authority to provinces and territories may provide lessons 
that could be applied to our own system. The IMCC member states are 
committed to an open dialog about these ideas.
    Additionally, the State of Alaska is going a step further and 
undertaking a review of assuming primacy for permitting under CWA 
section 404. Under this program, the state, rather than the Corps, 
would administer many 404 permitting responsibilities in cooperation 
with EPA. If we moved forward, this could require significant effort 
and expense by the state, but it may also make permitting projects, 
including mining projects, in Alaska more efficient, timely, and 
certain. We are putting our money where our mouth is. We are also 
potentially alleviating significant financing and staffing burdens for 
the Federal government at a time of very limited Federal budget 
capacity. This kind of partnership is a win-win scenario. There are 
many questions that need to be answered regarding development of the 
state program before we can make a recommendation to the Governor and 
the State Legislature to continue the process, but we are committed to 
continuing our thorough evaluation.
                             ix. conclusion
    I have presented a number of problems caused by overreach by the 
EPA and other Federal agencies, and I know my fellow panelists will be 
raising others. I am also presenting a solution--respect for states' 
rights and state primacy. States need to remain in the driver's seat on 
mining regulation so we can protect our environment while also 
attracting the mining investment that protects our citizens' economic 
security. I respectfully ask that you continue your careful oversight 
of Federal regulatory agencies to ensure they acknowledge this need. 
Thank you again for the opportunity to testify before you today, and 
for your leadership supporting American mining. I would be happy to 
answer any questions you may have.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Mr. Maier.

    STATEMENT OF SHELDON MAIER, PRESIDENT, FORTYMILE MINING 
                            DISTRICT

    Mr. Maier. Thank you. I am Sheldon Maier, President of the 
Fortymile Mining Association. Fortymile Mining Association was 
first convened in 1898. We have been organized and operating 
ever since to try to continue to ensure responsible resource 
development in our region.
    First, I will start by talking about the Federal overreach 
by the EPA, and about the raids. We consider them raids. It was 
a serious invasion.
    On August 13--I think it was between the weeks of--or in 
week 22 through 27, the EPA led their environmental crimes task 
force with armed agents. Between 3 and 7 agents entered 30 
different mining locations in the Fortymile. They entered mine 
sites without identifying themselves. They charged in, at Dick 
Hammond's family mine, he was at his cabin when they came by. 
Seven agents rode by on four-wheelers, didn't stop to identify 
themselves. Went up to his mine site, without him being there, 
poked around on his equipment, he had to go up and ask them 
what they were doing. And they said they were there to enforce 
the 404 Clean Water Act. He said they were extremely nervous, 
he was extremely nervous, because he had never experienced 
anything like this before.
    The Race family, Chris Race, he was working on a piece of 
broken equipment, so he wasn't actually mining, or sluicing, 
what we call at the time, and four Federal agents, or 
``agents,'' came by him. They didn't bother to stop and talk to 
him. They just came up and started poking around his mine site, 
too. They started looking at all of his equipment, climbing 
around on his stuff, looking for, well, he had to go ask them 
what they were doing. The same thing, they didn't bother to 
identify themselves. This is definitely not professional 
conduct from a law enforcement agent.
    And then Jeff Owen, another miner that I spoke with, he had 
the seven armed agents come to his mine site. They all had 
their full flak gear on, said ``Federal Agents'' on their 
vests. They were carrying not just sidearms. They told him they 
were there to collect water samples. When they did collect 
water samples, the only one he saw them take, which, when you 
are collecting a water sample, you are supposed to take it out 
of the main stream that the miner is actually operating on, not 
a side tributary. The only sample he saw them take was out of a 
side tributary.
    And then, Linda Kile, who is here today, and she has 
firsthand experience, because she was actually raided. And it 
would be nice for you to hear her side of the story.
    Notwithstanding this unacceptable show of force, I mean we 
are used to getting inspected by agencies, the State and the 
Federal agencies, it is unacceptable that this happens. There 
is no peer-reviewed science studied today to show that has been 
done currently, that placer mining is doing anything to hurt 
the water. We all, we have been living this life for a long 
time. I have been mining for 22 years in the Fortymile. Mrs. 
Kile has been for 37. We drink the water, we eat the fish. We 
care deeply for the land. We don't want to see it ruined. We 
just want to be able to continue our lifestyle.
    But we have multiple agencies, four Federal agencies right 
now are coming down on us. If we can't do something to stop 
what is happening with this regulatory overreach, we won't be 
in business any more. The Bureau of Land Management is one of 
them; MSHA, the other one; and the Corps of Engineers. And we 
have, the OSHA, for instance, they offer an exemption for small 
miners. We don't get one. Or, I mean, for small business 
owners. MSHA doesn't offer that for small miners.
    As far as the water quality standards go, I couldn't get 
any answers out of the EPA on where the water quality standards 
came from that we are supposed to be getting out of our 
settling ponds if we have discharge. But the only answer I got 
was the EPA said that the DEC set the standard. Well, the DEC 
said the EPA gave them a directive that they needed to pick 
one, so they picked drinking water. We are supposed to have 
drinking water standards of anything that comes out of our pond 
systems. And it is just not attainable. We can't humanly do 
that.
    And I thank you for allowing me to come here today and 
testify.
    [The prepared statement of Mr. Maier follows:]
   Prepared Statement of Sheldon Maier, Fortymile Mining Association
                    the fortymile mining association
    Gold discovery in the Fortymile September 7, 1886 by Franklin and 
Madison on Franklin Gulch. March 25, 1898 first official meeting of the 
Fortymile Mining Association (FMA) on Bonanza Bar. The Fortymile has 
been mined and prospected since making it the oldest Mining District in 
Alaska.
    Placer gold is washed from gravel without the addition of 
chemicals. There are approximately 657 active small scale placer 
operations in Alaska today; 77 are in the Fortymile mining district.
    The FMA maintains annual meetings and fundraising to ensure 
responsible mining activity in the region.
        federal overreach by the environmental protection agency
    August 2013; an EPA led crime taskforce with armed fully suited 
squads of 3-7 men entered 30 mining locations in the Fortymile. The 
taskforce took water samples from small scale placer operations to 
ascertain compliance with discharge requirements mostly without the 
courtesy of introducing themselves to the mine operators.
    EPA visit at Jeff Owen's mine site; 7 armed guards in two cars 
entered camp, 2 approached the miner for introduction, the rest started 
taking water samples. To measure potential discharge, a ``background'' 
water sample from upstream of the operation is needed. At the Owen mine 
site, the EPA took the background water sample from a small tributary 
to the mainstream instead.
    At the Race family mine, 4 armed guards entered on four-wheelers, 
they did not introduce themselves to the miner, but simply commenced 
sampling. The miner approached the agents to inquire about their 
activities.
    At the Hammond family mine, 7 armed agents passed the miner's cabin 
without stopping or making introduction and commenced searching and 
sampling at the mine site. Again the miner approached the agents to 
find out what their purpose was.
    Linda Kile will give an account of the inspection at her and her 
husband's mine site. Here again, no introductions were made, and the 
miner had to initiate dialog with the agents.
    Notwithstanding the unacceptable show of force to collect water 
samples, there is no science supporting current EPA small mine 
discharge restrictions. The only peer-reviewed studies on the 
environmental effect of fluctuating suspended solids, or turbidity, 
from placer mining, use data from before current settling pond and 
reclamation requirements were in place.
    The Army Corps of Engineer branch is also reaching into Alaskan's 
mining rights further by planning to ensure wetland reclamation through 
compensatory mitigation. No study has investigated small scale placer 
mining impact on wetlands since current reclamation practices have been 
mandated.
              federal overreach, bureau of land management
    In 1980 the Fortymile Management Plan along with plans for other 
Eastern Interior areas were mandated by Congress, but BLM has 
continuously ignored mandates in the plans to open designated areas to 
mineral entry, and the agency refuses to recognize valid existing 
rights with regards to navigable waterways, right-of-ways, and validity 
of mining claims in the managed areas.
    In accordance with the 1980 mandate, small scale placer miners now 
fulfill settling pond and reclamation requirements. Otherwise small 
scale placer mining methods have changed little since 1980 continuing 
to rely on the physical properties of material and water for gold 
extraction.
    Nevertheless, BLM insists on a new lengthy and more restrictive 
management plan encompassing all Eastern Interior Alaska.
                mining safety and health administration
    MSHA regulations are applicable to small mines to the same extent 
as to large operations with hundreds of employees, and large mines 
employ several people to stay abreast of MSHA required record keeping; 
an onerous and unneeded task for small scale placer operations.
    FMA encourage miners in the district to follow MSHA mandated 
precautions and practice safety and FMA conducts an annual licensed 
MSHA training class facilitating this.
    OSHA partially exempts businesses with fewer than 10 employees; in 
the interest of attainable safety parameters, a similar MSHA small 
miner exemption is warranted.
                      economic and historic impact
    The Alaska small scale placer industry impacts the economy in trade 
hubs as well as in the rural communities where the mines operate and 
contribute, and small scale place miners in Alaska work hard to comply 
with regulations to stay safe, minimize impact, and protect the 
environment.
    At the same time miners in the Fortymile are contributing to and 
participating in an ongoing part of Alaska mining history. Taking steps 
to ensure the survival of this sustainable and historically well 
preserved way of life is paramount.
               securing american small scale mining jobs
    In cooperation with the Alaska Miners Association the FMA has 
worked continuously to seek acceptable solutions and we suggest:

    <bullet> Small miner exemption from most EPA, COE, and MSHA 
            regulations; for mines under 10 employees and 20 acres
    <bullet> Congressional mandate to implement the original Fortymile 
            management plan

References:
--Alaska Polar Regions Archives, Rasmusen Library, UAF
--Alaska Department of Natural Resources
--EPA and MSHA regulations
--http://scholar.google.com/
    scholar?hl=en&as_sdt=0,2&q=turbidity+mining+alaska
--Army Corps of Engineers
--Proposed Eastern Interior Management Plan, and communications with 
    BLM state director Cribley Oct 2012
--Fortymile Management Plan
--https://www.osha.gov/pls/oshaweb/
    owadisp.show_document?p_table=STANDARDS&p_id=9632
--Fairbanks Economic Development Cooperation
--Personal communication

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Mr. Hamilton.

   STATEMENT OF CHRIS HAMILTON, SENIOR VICE PRESIDENT, WEST 
                   VIRGINIA COAL ASSOCIATION

    Mr. Hamilton. Thank you, Mr. Chairman. Good afternoon. I am 
Chris Hamilton, Senior Vice President of the West Virginia Coal 
Association. I appreciate the opportunity to participate in 
today's hearing.
    Our State of West Virginia just celebrated its 150th 
birthday, and we have been mining for all of those 150 years. 
As a State, we manufacture and export energy and power 
throughout the eastern part of our country, throughout the 
world. It enables millions of Americans to enjoy the freedoms 
and liberties, and the world's greatest quality of life, which 
we do.
    West Virginia is the second leading coal-producing State, 
the country's leading underground coal-producing State, and a 
U.S. leader in coal exports, where we account for about 50 
percent of the U.S. total. We have consistently averaged 
between 150 and 160 million tons of annual coal production over 
the past several decades, until this administration took 
office. We ship coal to practically every State east of the 
Mississippi River and some 38, 39 foreign destinations.
    Coal mining is a $30 billion business, an industry in West 
Virginia with coal and electric utilities accounting for over 
60 percent of all business taxes. Over the years we have 
enjoyed a great workforce, great access to ports, and 
tremendous quality in our coals. We also have a great 
infrastructure to support that level of mining. We have the 
best miners found anywhere in the world.
    Our industry was rolling along just fine, expertly 
navigating the typical cyclic nature of our business with 
economic fluctuations and mild weather patterns affecting 
demand and market conditions. In January 2009, all that changed 
when we began to experience an all-out assault on our industry 
from the Obama administration and our Federal Government. 
Literally, the day after President Obama took office, mining 
companies in West Virginia began to receive objection letter 
after objection letter from the U.S. Environmental Protection 
Agency raising objections to new permits. And even those that 
were already issued, where active operations exist. These were 
permits that were previously cleared by the same Federal 
agency, the U.S. Corps of Engineers, along with the West 
Virginia Department of Environmental Protection.
    Then came the Administration's Council on Environmental 
Quality and its multi-agency mine permit review process, known 
as the enhanced coordinated permit review process, and the 
imposition of new permit demands. This effectively slowed the 
mine permit process to a crawl, which soon afterwards became 
known as the Administration's ``Permitorium.''
    The Administration's war on coal has been waged with a 
barrage of ill-conceived administrative and regulatory actions, 
such as EPA's Spruce Mine retroactive veto, the Office of 
Surface Mining Reclamation's totally unnecessary efforts to 
rewrite the Stream Buffer Zone, effectively paralyzing acres 
and acres and millions of tons of coal reserves in our State. 
And, of course, EPA's regulatory train wreck. The war on coal 
is not rhetoric, it is real, and it is wrecking havoc and 
bringing harm to practically everyone in our State.
    Today, 57 months into the Obama administration, the war on 
coal has taken its toll, and things are very bleak in West 
Virginia. Currently, we have 101 fewer mines operating today 
than this time in 2008. That means approximately one-third of 
our coal mines operating in 2008 are now closed. All mining 
operations are impacted. Surface and underground, every mine 
has slowed or has cut back.
    In West Virginia alone, there are over 3,500 miners laid 
off or furloughed, another 12,000 to 15,000 mining-dependent 
jobs, which have been lost over the last 3 years. Across the 
Appalachian region, the damage is even worse, with 
approximately 10,000 direct mining jobs lost and another 40,000 
indirect jobs lost. At an average salary of $75,000 per person, 
the net effect is the removal of over $700 million from West 
Virginia's economy, and a whopping $2-plus billion loss from 
within a tri-state region, of Southwest Virginia, West 
Virginia, and Eastern Kentucky. These are real dollars that 
have been lost, impacting every family, every business in our 
area.
    The hardships on West Virginia and West Virginian families 
is hard to imagine from Capitol Hill: high stress levels, not 
being able to make ends meet, basic life needs not being met. 
These are too commonplace now, leaving a large number of West 
Virginians without hope and vulnerable to the perils of today's 
society as hopes of gainful employment vanish, and the 
possibility of life without a paycheck and health care benefits 
preconditions all else.
    As mining jobs have stripped away, we have seen a 
significant rise in drug and alcohol abuse, theft, and other 
forms of crime, and a tremendous amount of social decay.
    Thank you again, Mr. Chairman, for allowing us to 
participate, to share these numbers, to share these economic 
facts with you, as a direct result of this administration's war 
on coal. Thank you.
    [The prepared statement of Mr. Hamilton follows:]
 Prepared Statement of Chris R. Hamilton, Senior Vice President, West 
  Virginia Coal Association and Chairman, West Virginia Business and 
                            Industry Council
    Good afternoon! I appreciate the opportunity to participate in your 
meeting and discuss the actions or inactions of this Administration on 
West Virginia's economy.
    I'm Chris Hamilton, Senior Vice-President of the West Virginia Coal 
Association. More information on my background and experience in coal 
is included in my prepared remarks before you.
    West Virginia just celebrated its 150th birthday and we've been 
mining for all of those 150 years. We are without question one of the 
state's leading industries, if not the leading industry. We have always 
provided good paying jobs, infused millions of dollars into local and 
statewide economies and have provided the region, state, country and 
world with low-cost, reliable power on a 24/7 basis.
    That's what we do, as a state we manufacture and export energy and 
power throughout the eastern part of our country and throughout the 
world and it enables everyone else to enjoy the freedoms and liberties 
along with the world's greatest quality of life.
    West Virginia is the second leading coal producing state, the 
country's leading underground coal producing state and the U.S. leader 
in coal exports, accounting for 50 percent of the U.S. total. We have 
consistently averaged between 150-160 million tons of annual coal 
production over the past several decades--this is until this 
administration took office.
    We ship coal to practically every state east of the Mississippi 
river and some 38-39 foreign destinations.
    Coal mining is a $30 billion industry in West Virginia with coal 
and electric utilities accounting for over 60 percent of all business 
taxes. Over the years, we've enjoyed a great workforce, great access 
and coal quality, close proximity to ports, and generally, a good 
infrastructure. We have the best miners and coal quality found anywhere 
in the world.
    Our industry was rolling along just fine, experiencing the typical 
cyclic nature of our business with economic woes and mild weather 
patterns affecting demand and market conditions. In January 2009, all 
that changed when we began to experience an all-out assault on our 
industry from the Obama Administration and our Federal Government.
    Literally, the day after President Obama took office, mining 
companies in West Virginia began to receive objection letter after 
objection letter from USEPA, raising objections to new permits and even 
already-active operations that were previously approved and cleared by 
EPA, the U.S. Army Corps of Engineers and WVDEP.
    Then came the Administration's CEQ and its multi-agency mine permit 
review process known as the (enhanced coordinated permit review 
process) and imposition of new permit demands effectively slowing the 
mine permit process to a crawl, which soon afterward became known as 
the Administration's ``permitorium''--the highjacking of state's rights 
over the administration of water quality standards.
    A barrage of ill-conceived administrative actions, litigation and 
regulatory actions--e.g. Spruce mine veto, stream buffer zone proposal 
from EPA and its sister agencies OSM and MSHA, coupled with EPA's 
``train wreck'' advanced the ``War on Coal''.
    Fast forward to today, 57 months later, the war on coal has taken 
its toll and things are very bleak (statewide austerity). Currently, 
West Virginia has (101) fewer mines operating today than this time in 
2008--approximately one-third of our coal mines operating in 2008 are 
now closed. All mining operations are impacted and every mine has been 
slowed or has cut back.
    In West Virginia alone, there are over 3,500 miners laid off or 
furloughed and another 12-15,000 mining dependent jobs have been lost. 
Across the Appalachian region, the damage is even worse, with 
approximately 10,000 direct mining jobs lost and another 40,000 
indirect jobs. At $75,000 per person, the net effect is the removal of 
$719 million from our state's economy and a $2.05 billion loss from our 
region. These are real dollars that have been lost, impacting every 
family and business in our area.
    The hardship on individuals and West Virginia families is hard to 
imagine. High stress, not being able to make ends meet, basic life 
needs not being met, are all too commonplace leaving a large number of 
West Virginians without hope and vulnerable to the perils of today as 
hopes of gainful employment vanish and life without a paycheck 
preconditions all else. As mining jobs have been stripped away, we have 
seen a significant rise in drug and alcohol abuse, theft and other 
forms of crime and social decay.
    Small communities throughout our state have been threatened and 
county and municipal budgets and resulting government services dwindle.
    Since 2008, West Virginia has lost 25 percent of production as coal 
prices and productivity continues to fall. West Virginia has lost 
millions of dollars in severance collections which serves to fund 
education, county budgets and important programs for seniors and the 
less fortunate.
    To make matters worse nearly 300 coal-fired power units nationwide 
have closed or will be retired this year. Other plants have switched to 
natural gas. A total of eighteen (18) coal-fired units in West Virginia 
have announced their plans to close.
    It is estimated that each unit accounts for approximately 100 full-
time positions, thus the total number of jobs impacted in West Virginia 
by these closures is approximately 1,800 additional jobs.
    By utilizing every resource available to him, every Federal agency, 
President Obama has done everything in his power to obstruct West 
Virginia coal production and our industry from maintaining its 
viability in domestic and world markets. To date, and by all the 
negative administrative and policy acts, his mantra has been akin to 
``death by 1,000 cuts''. The President's plan on climate and EPA's NSPS 
is a knock-out punch for our industry.
    Our only savior at the moment appears to be the export market. As 
domestic usage continues to trend downward, international demand grows 
exponentially. With West Virginia currently accounting for a large 
share of U.S. exports, we stand to gain and become a world marketer of 
coal.
    Fortunately for us, world coal usage is on the rise as developing 
countries expand their economies and infrastructure. Exports have 
doubled over the past five (5) years and coal is quickly becoming the 
world's fuel of choice for power generation. In fact, coal is scheduled 
to surpass oil over the next 2-3 years.
    Other nations see coal the way America used to view this resource, 
as an abundant, low-cost and reliable fuel. America became a 
manufacturing superpower thanks to coal, and it can't be a coincidence 
that our global domination waned when we stopped fostering coal 
industry development.
    Although the current export market appears strong today, 
predictions of our continued presence and strength vary. As with 
domestic energy, we face strong competition for seaborne coal from 
foreign producers who do not have the same level of protections for the 
environment or for human rights.
    Actions of this president have even placed global opportunities at 
risk by calling on the World Bank and international financial 
institutions to stop funding the construction of coal-fired power 
plants and the construction of new port facilities which could handle 
greater coal volumes, are endangered by the EPA.
    In closing, I simply observe--the president speaks a lot about 
economic justice and hope and promise--I would simply ask: where is the 
justice for West Virginia and Appalachia? Where is the hope or justice 
for our coal mining families?
    There are few options available for many of our miners and by his 
actions, this president is effectively condemning them to lives of 
poverty and despair. Again, I ask where is the justice?
    Thank You.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Mr. Van Vactor.

   STATEMENT OF NORMAN VAN VACTOR, CHIEF EXECUTIVE OFFICER, 
          BRISTOL BAY ECONOMIC DEVELOPMENT CORPORATION

    Mr. Van Vactor. Mr. Chair, members of the committee, our 
own Congressman, Don Young, my name is Norman Van Vactor, and I 
am the CEO/President of the Bristol Bay Economic Development 
Corporation.
    BBEDC is a community-based corporation charged with 
developing and enhancing the fishery-related economic 
opportunities in our region. For nearly 40 years, I have worked 
in every aspect of the seafood processing industry in Bristol 
Bay, working my way from deckhand on a boat to the Bristol Bay 
manager for one of the largest seafood companies in the United 
States. I am particularly honored to be here today with Mr. Tom 
Tilden, Rick DelKittie, and Bobby Andrew, who are tribal 
leaders from our region.
    I have to confess, given my track record of aggressive 
economic pursuit and development, I never thought I would be in 
Washington, DC to testify in support of a regulatory agency. 
But EPA's involvement in Bristol Bay offers the opportunity for 
a science-based, common-sense solution to the threat posed by 
the proposed Pebble Mine. So, here I am, and I thank you for 
the opportunity.
    Also, since I am here, I cannot help but comment on the 
fact that the government shutdown is already impacting our 
fishing economy. The Bristol Bay Red King Crab fishery must 
start on October 15, or it risks losing a significant 
marketplace. Please end the shutdown so our fishermen can get 
their Federal permits and get back to work.
    My testimony today focuses on the importance of the Bristol 
Bay economic engine, based on our wild salmon fishery, and the 
positive role EPA has played, and should continue to play, in 
assisting the people of Bristol Bay to protect this immensely 
important cultural and economic resource.
    The indigenous people and folks like myself who call 
Bristol Bay home have one commonality: our lives and economy 
focus around salmon. The Bristol Bay salmon fishery, as has 
been mentioned, is, without question, large and lucrative, and 
provides about 50 percent of the world's sockeye salmon 
production. The economic importance of the fishery extends well 
beyond Bristol Bay in the State of Alaska. We touch the Pacific 
Northwest in a big way and, by extension, our entire country: 
over 12,000 jobs, over 2,000 small business owners that we call 
fishing families. Our fishery is robust and healthy because of 
the pristine and untouched watershed conditions.
    In February of 2011, the communities of Bristol Bay drafted 
what we now call the Bristol Bay Vision Statement. That vision 
is based on the fact that we are a salmon-based community and 
economy, and is founded on a fish-first policy.
    The perspective shared by most of my industry, the 
production level with boots on the tundra and the boats of 
Bristol Bay, is, despite being at odds at times with 
regulators, EPA has been effective and fair in permitting and 
enforcement. Consistent enforcement rewards those of us in 
compliance, and provides a clear message to the regulated 
community that there is a price to be paid for non-compliance.
    The proposed Pebble Mine sits at the headwaters of the 
Kvichak and the Nushagak River drainages, two of the most 
prolific salmon-producing watersheds in the world. This 
sensitive location, its massive size, and potential acid-
generating nature, combine to pose an unacceptable risk to our 
region.
    I want to highlight that EPA is involved in Bristol Bay in 
response to the unprecedented alliance of Tribes and native 
corporations, sport, and commercial fishing industries, all of 
whom petitioned EPA to use its authority under the Clean Water 
Act to step in to help protect our wild salmon, the fisheries, 
and the people who rely upon them. This response was a 
collective expression of concern from the community to have 
certainty that its cultural and economic well-being would be 
protected.
    The EPA responded to our request by conducting a scientific 
assessment of the watershed and the salmon fishery. EPA has 
been responsible for several public hearings throughout our 
region. Ninety-eight percent of the people from Bristol Bay who 
commented to EPA, more than 1,200 comments all together, 
supported EPA action, just a remarkable level of agreement and 
participation from our region. This is an issue that has 
bipartisan support in the State of Alaska and elsewhere.
    EPA should complete its scientific study and address the 
request to protect Bristol Bay. There is a legitimate national 
interest in protecting clean water that has, for centuries, 
supported the people and economy of our region. As a 
businessperson, I would welcome a regulatory agency telling me 
right up front the core parameters of a permit that are 
proposed for my proposed operations.
    The pure and abundant waters of Bristol Bay support a 
salmon fishery that is the very foundation of Bristol Bay, 
unique in the world, and truly a national treasure. We, the 
people of the region, know we live in one of the most 
incredible places on earth. Our region feels threatened to its 
core by the proposed mine. The threat posed by the proposed 
Pebble Mine has gone on long enough.
    We support EPA, and we urge swift and decisive action under 
the Clean Water Act to protect Bristol Bay.
    Thank you.
    [The prepared statement of Mr. Van Vactor follows:]
 Prepared Statement of Norman Van Vactor, CEO/President of Bristol Bay 
                    Economic Development Corporation
    Thank you very much for inviting me to testify today. My name is 
Norman Van Vactor and I am the CEO/President of the Bristol Bay 
Economic Development Corporation (BBEDC) in Dillingham, Alaska. I have 
lived and worked in the Bristol Bay region for the last 38 years. For 
37 of those years I divided my time between Bristol Bay and Seattle, 
Washington. I started as a deckhand on fishing tenders working my way 
through college as a vessel Captain, later joining the Shore Side 
Management team with Peter Pan Seafoods as a Plant Manager. With time I 
became the Bristol Bay Manager for Peter Pan Seafoods, one of the 
largest seafood companies in the United States. My responsibilities 
included managing the shore-based cannery and the floating processing 
ships. In 2006 I joined a smaller family-owned fishing company and 
started a shore-based freezing operation in Dillingham. Subsequently I 
became the General Manager of Leader Creek fisheries based in Naknek, 
Alaska.
    From operating the oldest continually operating cannery in Alaska, 
to being involved with the development, construction, and modification 
of floating processors, to new startups, to taking on regulatory and 
other issues that preceded my direct involvement, my experiences 
throughout the fishing industry in Bristol Bay have been varied.
    Through these experiences, I have seen first-hand the immense 
economic and cultural value of the Bristol Bay fishery. Last fall I was 
offered the opportunity to become the CEO/President of BBEDC. We are a 
regional community-based corporation charged with developing and 
enhancing the economic opportunities in the 17 communities that we 
represent and for the greater Bristol Bay watershed when possible. Our 
support and constituency is not race-based but residency-based. The 
indigenous people and folks like myself who call Bristol Bay home have 
one commonality--our lives and economy focus around salmon.
    My testimony today focuses on the importance of the Bristol Bay 
economic engine--the pristine salmon fishery--and the positive role EPA 
has played and should play in assisting the people of Bristol Bay in 
protecting this immensely important economic and cultural resource. 
First I will define for you the economics of Bristol Bay; second I will 
speak to my business experiences as a manager of seafood processors in 
the community and as President/CEO of BBEDC; third I will explain my 
view on why the location, size and type of the proposed Pebble Mine 
presents an unacceptable risk to our economy and people; and finally, I 
will lay out the reasons why my community and others have asked the EPA 
to step in and use its legal authority to help protect the Bristol Bay 
watershed.
                         bristol bay economics
    The Bristol Bay salmon fishery is without question large and 
valuable. The commercial salmon industry has been in place for over 120 
years to say nothing of the time period of subsistence and recreational 
use before that. It is the world's single most valuable wild salmon 
fishery and provides about 50 percent of the world's sockeye salmon 
production. The economic importance of the fishery extends well beyond 
Bristol Bay and Alaska, and is particularly significant to the West 
Coast States of Washington, Oregon, and California. . . . In fact, the 
Bristol Bay fishery provides 14,000 jobs to the Nation. Every summer, 
over 7,000 commercial fishermen fish in Bristol Bay and this provides 
essential income and additional jobs to watershed residents. The 
University of Alaska Institute of Social and Economic Research found 
the Bristol Bay salmon fishery has a total economic output or sales 
value of $1.5 billion across the United States (see Attachment 1--
retained in Committee's files).
    In the just completed fishing season of 2013, over 23 million fish 
found their way home and about 16 million fish were sustainably 
harvested. All that in a down biological cycle. Our fishery is robust 
and healthy because of the pristine and untouched watershed conditions. 
Consumers, increasingly aware of the healthy attributes of wild salmon 
vs. farmed salmon, are seeking our wild salmon products. Our fishery 
and the economic value derived from it, while not without challenges, 
are looking better than they have for 20 years.
    We know we have to invest in our own future. To that end, BBEDC 
recently acquired a 50 percent stake in Ocean Beauty Seafoods, one of 
the largest seafood processors and distributors in Alaska. In addition, 
Silver Bay Seafoods, a new player to the region and largely owned by 
fishermen, is building a new shore-based processing plant with 
capitalization in excess of $40 million. Silver Bay plans on being 
operational in 2014. These investments in our resource are being done 
with faith and hope for a continued healthy and sustainable fishery far 
into the future. Greater investment opportunity exists and I have no 
doubt that others would invest their resources if the cloud of 
uncertainty, posed by the threat of the Pebble Mine, was eliminated.
    In February of 2011, after two years of engaging community members 
in 27 communities, the people of Bristol Bay drafted the ``Bristol Bay 
Vision Statement'' (see Attachment 2--retained in Committee's files).
    As you can see the people of Bristol Bay have a clear vision for 
the future. That vision is based on the fact that we are a salmon-based 
community and economy, and the vision is founded on a fish-first 
policy.
    positive role of epa permitting and enforcement in the business 
                               community
    My perspective, and the perspective shared by most of the industry 
at the production level with boots on the tundra and in the boats of 
BB, is that EPA has been present, fair and consistent. I personally had 
positive and helpful interactions with EPA during my experience 
managing the seafood processing community. Further, I found EPA to be 
effective and fair in permitting and enforcing standards, and this 
fairness helps promote positive business decisions.
    Togiak Seafoods, which is owned in part by one of our member 
communities, is a good example where EPA provided clarity upfront so 
that the project could proceed. EPA told folks right off the bat that, 
given the volume of discharge and the location of the facility, certain 
criteria must apply to obtain a discharge permit for the site. This 
early input changed the way the community approached and implemented 
its business plan. EPA's input didn't stop the project; rather it 
changed it for the better of the community and industry.
    We can construct things properly and run our businesses accordingly 
when we know the necessary standards up-front. This also provides 
needed certainty for both the community and investors. Standards and 
regulations are important for the public and regulated community, but 
they are not enough. We also need strong and consistent enforcement by 
EPA to make sure that there is a level playing field amongst the 
regulated industry. Consistent enforcement rewards those in compliance 
and also provides a clear message to the regulated community that there 
is a price to be paid for non-compliance with permits intended to 
protect the environment.
                          proposed pebble mine
    The location, type, and size of the proposed Pebble Mine--as 
described in the Northern Dynasty Minerals Ltd.'s own publicly-
available documents--presents an unacceptable risk to our people and 
economy. The proposed mine sits at the headwaters of the Kvichak and 
Nushagak River drainages, two of the most prolific salmon-producing 
watersheds in the world. These headwater areas include streams and 
wetlands that support the essential salmon spawning and rearing habitat 
of these drainages, and pristine water quality of these areas is 
critical for salmon production and survival.
    The Pebble deposit is a low-grade ore that requires large-scale 
mining to be economically viable. If fully developed, Pebble Mine would 
be the largest mine of its type in North America, and would dwarf the 
combined size of all mines ever developed in Alaska.
    Finally, a significant percentage of the ore within the Pebble 
deposit includes potentially acid-generating properties. The proposed 
Pebble Mine therefore would require the use of a tailings storage 
facility where acid-generating tailings would be stored behind a dam in 
perpetuity.
    In short, no iteration of the Pebble Mine plans I have seen is 
acceptable or good for Bristol Bay. These plans all contain 
unacceptable risks to the greatest wild salmon run left on the planet.
                        the epa and bristol bay
    I want to highlight that EPA is involved in Bristol Bay because the 
community asked EPA to engage and protect the fishery and the people 
who rely upon it. Our community has received little support from the 
State of Alaska to date and we therefore turned to the Federal 
Government. In May 2010, six federally recognized tribes and commercial 
fishermen petitioned EPA to use its authority under the Clean Water Act 
to protect our fishery. Other Bristol Bay area tribes, the Bristol Bay 
Native Corporation, and Bristol Bay commercial and sport fishing 
groups, among others, also requested that EPA take action to protect 
Bristol Bay. This was a collective expression of concern from the 
community to have certainty that its cultural and economic well-being 
would be protected.
    The EPA responded to our request by conducting a rigorous 
scientific assessment of the watershed and the salmon fishery. The 
EPA's Bristol Bay Watershed Assessment allows the EPA to move forward 
to protect the region based on solid science-based information. In 
completing its watershed assessment, the EPA conducted two essential 
peer reviews of its document and supporting studies. The EPA has also 
been extremely responsive to public comments and concerns, including 
visiting our region to hold public comment meetings in six villages--
Igiugig, Levelock, Naknek, Nondalton, New Stuyahok, and Dillingham. I 
personally participated in three hearings and meetings that EPA held 
throughout the Bristol Bay region. To me, the EPA has been very 
responsive to our concerns.
    In addition to visiting the region, EPA had two public comment 
periods on the watershed assessment document. During the second public 
comment period, 98 percent of the people commenting from the Bristol 
Bay region--more than 1,200 people total--sent letters to the EPA in 
support of process and the watershed assessment, a truly remarkable 
level of agreement and participation from our region.
    The Bristol Bay Watershed Assessment describes the location, size 
and type of the proposed Pebble Mine and clearly describes the threats 
to our lifestyle, community, and economic foundation. Again, no 
iteration of the Pebble Mine plans I have seen is acceptable or good 
for Bristol Bay.
    In my opinion the EPA should develop performance standards that 
will ensure that we deal with the hard questions about the proposed 
Pebble Mine up-front, thus providing greater certainty to businesses 
and the entire Bristol Bay community. The EPA has the legal authority 
to implement performance standards through the Clean Water Act, Section 
404(c). The Riley/Yocom Report from 2011 (executive summary included as 
Attachment 3--retained in Committee's files) describes the following 
performance standards that I believe EPA should implement to address 
proposed mining activities in the Bristol Bay watershed:

  1.  No discharge of dredged or fill material into salmon spawning and 
            rearing habitat;
  2.  No discharge of dredged or fill material that is toxic to aquatic 
            life;
  3.  No discharge of dredged or fill material that requires treatment 
            of runoff or seepage in perpetuity.

    EPA should take action now to protect Bristol Bay. There is a 
legitimate national interest in protecting clean water that has for 
centuries supported the people and economy of Bristol Bay. As a 
businessman, I would welcome someone telling me up front the core 
parameters of a permit for my proposed operations.
    Our community has been dealing with the uncertainty caused by PLP 
for many years. In fact, this summer Senator Lisa Murkowski called for 
a stop to this lengthy uncertainty, stating that the proposed Pebble 
Mine has promoted ``anxiety, frustration, and confusion'' in many 
Alaska communities. I couldn't agree more. EPA could, by developing 
performance standards now, go a long way to eliminate that uncertainty.
                               conclusion
    The pure, pristine, and abundant water of Bristol Bay supports a 
salmon fishery that is the very foundation of Bristol Bay, unique in 
the world, and which is a national treasure. The people of Bristol Bay 
know we live in one of the most incredible places on earth--all due to 
our pristine fishery. And that fishery is threatened to its core by the 
proposed Pebble Mine.
    EPA's draft watershed assessment has added immense knowledge and 
value to the discussion concerning Bristol Bay. This information is 
vital to our community and future activities proposed for the Bristol 
Bay watershed. And just as we knew which standards would apply when I 
worked on bringing the Wood River Seafood Plant back to life, so too 
would responsible mining companies benefit upfront from knowing what 
standards to apply to prevent unacceptable adverse impacts to salmon 
fisheries.
    In short, the threat to Bristol Bay posed by the proposed Pebble 
Mine has gone on long enough. EPA should, as soon as possible, finalize 
the assessment and use its Clean Water Act authority to develop and 
implement performance standards that would apply to the proposed Pebble 
Mine. I support EPA, and urge swift and decisive action by it to 
protect Bristol Bay.

                                 ______
                                 

    Mr. Lamborn. OK. Thank you. We will now begin our 
questioning. Members are limited to 5 minutes, but we may have 
an additional round.
    Let me fill you in on what is happening on the Floor. They 
are about to start votes. So when that happens, we will 
continue a little bit further along, then we will go into 
recess, and it will be about 30 minutes or so before we can 
come back. And then, at that point, we will resume. And I would 
ask the patience of each of our witnesses to indulge us while 
we go over and vote for about 30 minutes, which is coming up 
fairly soon.
    I am going to yield my first 5 minutes of questioning to my 
colleague, Representative Young of Alaska, for scheduling 
purposes. And then he will yield to me in return. So, for 5 
minutes, Representative Young.
    Mr. Young. Thank you, Mr. Chairman, and thanks for holding 
this hearing. I would like at this time to offer a testimony by 
Linda Kile and submit it for the record.
    [No response.]
    Mr. Lamborn. There is no objection; so ordered.
    [The prepared statement of Ms. Kile, submitted by 
Representative Young for the record, follows:]
                    Prepared Statement of Linda Kile
    My husband and I have placer mining claims in Alaska near the 
border with Canada. Most of our claims are patented and therefore 
private property. My husband has 50 years of mining experience and I've 
been with him for 36 years. Over the years we've been visited by 
multiple regulatory agencies, all of whom arrived without prior notice, 
but all of whom sought us out, explained the reason for their visit and 
we proceeded from there. Our most recent visit by the EPA in no way 
resembled any of our previous encounters.
    This experience began Tuesday, August 20, 2013 with a single engine 
aircraft circling our camp at various times during the day, as well as 
flying up and down the creek which passes through our claims. We had no 
idea who it was or why they were circling our camp.
    On Thursday, August 22, 2013 the plane returned and again circled 
our camp several times and flew up and down the creek. We were becoming 
quite disturbed because it was now obvious we were under some type of 
surveillance and we wanted to know who it was and why we were being 
watched.
    At approximately 5:30 p.m. that day I heard several four-wheelers 
on the road below our camp, which is nothing unusual except the engines 
were suddenly shut off. I looked over the bank and saw three people 
wandering around. I headed down the hill toward them to see who they 
were and ask why they had stopped. As I got closer I was stunned to see 
that they all were wearing bullet-proof vests and were carrying various 
weapons. I looked down the road and saw three more armed and vested 
people with my husband and son. My mind was reeling at this point 
because I'd never seen anything like that on our mining claims. I 
approached them and asked who they were. In response one of the men 
silently pointed to the words on his bullet-proof vest which said 
``FEDERAL AGENT''. I asked what that meant and they said ``EPA''. I 
then asked if there was something specific they wanted and they said 
they were taking water samples for the ``Clean Water Act'', though I 
didn't see them take any samples. They said they were going to check 
all our creeks, two of which actually converged right next to them. I 
suggested they go ahead and take their samples right there in front of 
me, but they refused. They said they were going to look around on our 
claims. I informed them it was private property and was posted as such. 
Their only response was ``Clean Water Act''. I also asked them about 
the aircraft that had been circling us and they denied knowing anything 
about an aircraft.
    At that point they got on their wheelers and drove onto our 
property over to one of our shaker plants (used for sluicing), 
dismounted and began taking pictures of the shaker and surrounding 
area. I went to where my husband and son were talking with the other 
agents. He too questioned them as to why they were on our property 
taking pictures and what the pictures were for. The only response to 
him was the same that I'd received, ``Clean Water Act'' with no 
additional explanations. He also asked them about the aircraft and one 
agent replied that it was their ``air support''. My husband inquired 
about the firearms and show of force and the only response to that 
question was, ``It's policy''. Two of the agents stayed close to my 
husband and son while another was on our property taking pictures of 
our other shaker box. My husband questioned them about bypassing the 
``Private Property--No Trespassing'' signs and taking pictures and 
again the only response received was ``Clean Water Act''.
    The six agents eventually left without any further communication 
with us. My husband, son and I were all very confused and upset about 
the entire encounter. At no time did any of them ever approach us and 
identify themselves. They presented no documentation to confirm their 
identities or explain the purpose of their invasion (the word ``visit'' 
is too civil a term for this encounter). We had to approach them. None 
of us witnessed them take a single water sample, so there is no way for 
us to verify if they actually did take samples, or if so where those 
alleged samples came from. The more we processed the encounter the more 
upset we became. We comply with all regulations and have never been 
cited for any violations. Suddenly and without provocation we are set 
upon by six fully armed agents on the ground and two in the air. They 
violated our property with no regard or respect for ``No Trespassing'' 
signs, and left us with the frightening realization that this is 
happening in the United States of America to law-abiding citizens and 
it's being perpetrated by our own Government.
    On September 14, 2013 there was a meeting in Chicken, Alaska 
regarding EPA's ``visit'' to multiple mining operations in that area. 
This meeting was attended by multiple miners; Sean Parnell, Governor of 
Alaska; representatives from the offices of Senator Murkowski and 
Congressman Young; as well as representatives of state legislators, 
along with Ken Fisher from the EPA in Juneau and Ted Murphy from BLM. 
Mr. Fisher and Mr. Murphy questioned about the necessity of the blatant 
show of force, as well as how they determined whom to visit. They 
stated that the list of mines they visited was a result of lengthy 
criminal investigations of miners with a history of non-compliance. 
They felt the weapons were necessary due to reports of heavy criminal 
activity in the area involving drug and human trafficking, and child 
endangerment as reported to them by Alaska State Troopers (which the 
troopers denied).

                                 ______
                                 

    Mr. Young. And for the gentleman from Oregon, I am going to 
remind him that he was not there, and there is testimony that 
they were carrying M-16s and assault shotguns, fully armored, 
and said, ``Police Agents.'' This is a SWAT team. They did not 
communicate with any of the people they were investigating, 
they would not answer. All they would say, ``Clean Water Act,'' 
``Clean Water Act.'' This is not the way our government should 
talk.
    They have been visited many times, and regulatory agencies 
have visited them. They always go in and introduce themselves. 
This was not Federal land, it was State land, State claims, and 
patented claims. They broke the law. And any time our 
government starts doing that without due process of the law, we 
have lost our government. We are losing it.
    There is such a thing as a handshake, say, ``Listen, I have 
a problem. We want to take water samples,'' and they could have 
done that. But, no, they came down with the heavy, just like 
the Park Service is doing in my State. There is no 
consideration of the human factor. And I think you will find 
out these small mines have been running, for like you said, 37, 
40 years--1895? There have been no complaints, no science. Why 
the strong arm?
    I just want you to think about this. You sit back on that 
side of the aisle and think, ``Oh, the government is so good, 
let's hug them,'' when they are, in fact, hurting people. 
Legitimately not doing so--in fact, they have a process which--
they are forcing the little guys--we have heard about the coal 
mines, we heard about Pebble Mine, we have heard about the 
State. But let's think about the little guy. You are supposed 
to be for little guy. You are for big government. Government 
can't be wrong. Government is always right. They rolled a 79-
year-old man around in the mud, arrested him on nothing 
charges. You are supposed to be for the little guy. No, you are 
for big government.
    Mr. Maier, I want to ask you one question. Has much changed 
in these Fortymile areas, as far as mining goes, in the last 22 
years?
    Mr. Maier. We just have a lot more Federal regulations to 
deal with, so the permitting----
    Mr. Young. But the process, though, has not changed?
    Mr. Maier. No. We still fill out our APMA and then--oh, you 
mean as far as the mining goes?
    Mr. Young. Yes.
    Mr. Maier. As to how we mine? No, it is still--we just--we 
wash the rocks. We do settling ponds now, and do reclamation 
mandatory since----
    Mr. Young. And I want to stress that settling pond, because 
that was not a requirement when it started in 1895.
    Mr. Maier. No.
    Mr. Young. So now you have settling ponds.
    Mr. Maier. Yes.
    Mr. Young. And the settling ponds are supposed to reach the 
quality of drinking water?
    Mr. Maier. Yes.
    Mr. Young. Which is very nearly impossible?
    Mr. Maier. Yes, I don't know how you would do that.
    Mr. Young. Yes, because now, that is what they are probably 
basing this on. But they were--were they exempted for a period 
of time, or this is relatively new?
    Mr. Maier. No--well, in 1986, when the--through ANILCA, and 
the management plans that were passed through Congress then is 
when the mandates for mandatory reclamation and water--having 
ponds and--so----
    Mr. Young. Now, the State did this first?
    Mr. Maier. No, that, I think that came, as far as my 
knowledge, is it came through after ANILCA and the management 
plans were passed.
    Mr. Young. But OK, management. Even EPA at that time wasn't 
doing the investigation, though.
    Mr. Maier. No, not to my knowledge.
    Mr. Young. BLM is making things more difficult for you now? 
They are trying to put you out of business, is what I am trying 
to get across.
    Mr. Maier. Yes, the BLM, they are working on a new 
management plan in the eastern interior, and it is getting far 
more restrictive. There are, well, for instance, there are six-
and-a-half million acres in the Fortymile subunit. The current 
active mining claims, Federal mining claims, right now on the 
Fortymile are about 25,000 acres. So that is less than, that is 
about .4 percent of the Federal land that is open for mineral 
entry. And now they want to limit more. They want to restrict 
more.
    And our main contention about this is the Federal 
Government, the BLM, just spent 3 years publishing a 1,400-page 
monstrous proposal, they are going to redesignate land. They 
want to put more restrictions on access. We have a bone of 
contention with them over access on R.S. 2477's and 
navigability issues.
    We have a plan that Congress passed in 1986. It is the 
Fortymile management plan. There are plenty of environmental 
safeguards in there. We, as the district, and the miners in the 
district, we try every way we humanly can to comply with these 
mandates.
    Mr. Young. That is already the law.
    Mr. Maier. Yes.
    Mr. Young. I want everybody to remember, already the law, 
and now they are trying to change that law. That is the thing 
that concerns me a great deal.
    Mr. Chairman, I know my time is up. I do thank you. And I 
want to thank the witnesses.
    And, Linda, I am sorry I submitted your written testimony. 
I would like for you to have been able to tell this committee 
that feeling of private property and these agents not 
responding to your questions at all.
    Again, think about our government. Forget your liberal 
labels. If you really believe in the people, start thinking 
about the little people. And shame on you if you don't.
    Thank you, Mr. Chairman.
    Mr. Lamborn. OK. We will now have time for one more 
Member's questions. Then we will go into about a 30-minute 
recess. Representative Holt.
    Dr. Holt. Thanks. Mr. Hamilton, let me clarify something in 
your testimony that I am really not sure of.
    According to the Coal Facts newsletter, published by the 
West Virginia Coal Association, has the number of employed coal 
miners increased or decreased in recent years?
    Mr. Hamilton. It should show a decrease.
    Dr. Holt. Well, in the Coal Facts 2012, the employment 
figures show 22,000 miners, the highest level in any of the 
reports on your Web site, an increase of 3,000 over the level 
from 4 years before. Is it increase or decrease? I am----
    Mr. Hamilton. The 2012 Coal Facts----
    Dr. Holt. I am genuinely----
    Mr. Hamilton [continuing]. Would have contained information 
on calendar year 2011.
    Dr. Holt. I see.
    Mr. Hamilton. There was a slight blip in employment from 
2008 to 2011.
    Dr. Holt. 2011, OK.
    Mr. Hamilton. Basically, due to the increased manpower 
demands on loss of efficiencies because of every mining company 
basically mining out of cycle, mining out of sequence, mining 
areas that they----
    Dr. Holt. OK. Now, Mr. Hamilton----
    Mr. Hamilton [continuing]. Did not engineer, because of the 
lack of permits.
    Dr. Holt. OK. So it is from the year before.
    Mr. Hamilton. Yes.
    Dr. Holt. But your testimony accuses, I think that is 
probably the right word, the administration of being directly 
responsible for declining coal production in West Virginia, 
from the day of President Obama's inauguration. Do you know 
what actually happened to national coal production over the 
first 2 years of the Obama administration?
    Mr. Hamilton. I am not sure about national production.
    Dr. Holt. OK. It increased. Do you know what happened to 
the national coal production in the first 2 years of the Bush 
administration?
    Mr. Hamilton. I am not sure.
    Dr. Holt. Actually, it decreased. So, you know, I would 
caution you against throwing these accusations around about a 
war.
    Mr. Hamilton. Well, what I know is we produced 165 million 
tons of coal the year before President Obama took office. This 
year we will likely produce less than 100 million tons, a loss 
of 65 million tons of coal over a 4\1/2\-year period, and the 
loss of some 3,500 jobs.
    Dr. Holt. And how much of that do you attribute to the use 
of natural gas for energy----
    Mr. Hamilton. There has clearly been an influence by the 
abundance of low-cost natural gas----
    Dr. Holt. I think a----
    Mr. Hamilton. Coal has actually regained most of the lost 
production to natural gas over the last 18 months, due to the 
price increases in natural gas. At least----
    Dr. Holt. I mean the use of coal for electricity from 2011 
to 2012 was down nearly 13 percent, natural gas up about 21 
percent. So again, I am not sure that we can attribute this to 
a war on coal by the Obama administration.
    Mr. Hamilton. Well, in addition to the lost jobs----
    Dr. Holt. Let me ask Mr. DeFazio if----
    Mr. Hamilton [continuing]. There have been some 300 coal-
fired power plants shut down----
    Dr. Holt [continuing]. He has--let me ask Mr. DeFazio----
    Mr. Hamilton [continuing]. West Virginia.
    Dr. Holt [continuing]. In my remaining 2 minutes if he has 
some questions that he would like to----
    Mr. DeFazio. I thank the gentleman, yes. I would like to 
turn to the gentleman, Mr. Van Vactor, on Pebble.
    You know, it's been said that this is this national war, 
this Federal agency coming in to a place where it is not 
wanted. Could you tell me who requested the EPA to come in and 
do this oversight?
    Mr. Van Vactor. Mr. Congressman through the Chair, it was 
an incredible coalition, the likes of which we have never seen 
in the State of Alaska before. As I mentioned, it was the 
native corporations, it was Tribes, it was the sport fishing 
industry, it was the commercial fishing industry. We asked EPA 
to come in because we felt the State wasn't coming in.
    Mr. DeFazio. And so you are telling me the commercials and 
the sports and the Tribes don't get along all the time, huh?
    Mr. Van Vactor. We do not get along all the time. So this 
was a very unique instance----
    Mr. DeFazio. Right, I get that.
    Mr. Van Vactor [continuing]. A broadband coalition.
    Mr. DeFazio. OK. Now, as I understand it, people also say 
this is based on a hypothetical. But weren't there documents by 
the proponents of the mine that were filed, upon which the 
analysis was based? And isn't it true that there would be 
hundreds of thousands of tons of toxic tailings or potentially 
leachate tailings, that would have to be sequestered forever, 
in order not to impact water quality?
    Mr. Van Vactor. No question, Mr. Congressman through the 
Chair. The facts that the State has, tens upon thousands of 
pages of documents, which are actually generated by the mining 
companies themselves, as to the different possibilities and 
different applications, and different results. All you need to 
do is go to their own Web site, their own homepage. And it is 
not just tens of thousands of toxic tons. It is over ten 
billion tons. And that information comes right from their own 
homepage.
    Mr. DeFazio. And you think that this could have an impact 
on water quality?
    Mr. Van Vactor. No question, sir.
    Mr. DeFazio. OK.
    Mr. Van Vactor. The livelihood of the folks----
    Mr. DeFazio. How many jobs for the mine versus the 
sustainable jobs? Last question. I am running out of time.
    Mr. Van Vactor. Hundreds to maybe 1,500 versus tens of 
thousands.
    Mr. DeFazio. That are sustainable forever?
    Mr. Van Vactor. Absolutely. Sustainable forever and have 
been around forever.
    Mr. DeFazio. Great. Thank you. Thank you, Mr. Chairman----
    Dr. Holt. Reclaiming the time, Mr. Chairman, I would like 
to ask unanimous consent to submit in the record a letter to 
the subcommittee from Trout Unlimited in support of the EPA's 
assessment of the Bristol Bay watershed.
    [No response.]
    Mr. Lamborn. If there is no objection, so ordered.
    Dr. Holt. Thank you.
    [The letter from Trout Unlimited to the Subcommittee, 
submitted for the record by Representative Holt, follows:]
         Letter Submitted for the Record by Representative Holt

                                   Trout Unlimited,
                                              Arlington, VA
                                                   October 9, 2013.
Hon. Doug Lamborn, Chairman,
House Subcommittee on Energy and Mineral Resources,
1333 Longworth House Office Building,
Washington, DC 20515.

Hon. Rush Holt, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
H2-186 Ford House Office Building,
Washington, DC 20515.

    Dear Chairman Lamborn and Ranking Member Holt:

    Trout Unlimited (TU) is writing on behalf of its 150,000 members 
nationwide to comment on the October 10th Energy and Mineral Resources 
Subcommittee hearing titled, ``EPA vs. American Mining Jobs: The Obama 
Administration's Regulatory Assault on the Economy.'' Please include 
our letter in the hearing record. We wish to take this opportunity to 
convey our strong support for the Environmental Protection Agency's 
(EPA) actions in regards to proposed large scale mining in the 
headwaters of Bristol Bay, Alaska.
    TU's mission is to conserve, protect and restore North America's 
trout and salmon fisheries and their watersheds. Protecting Bristol 
Bay's world class fishery from the likely harm caused by the proposed 
Pebble Mine--which would be one of the world's largest open pit mines, 
located in the headwaters of Bristol Bay's most productive rivers--is 
our highest conservation priority.
    EPA's decision to conduct a watershed assessment on the potential 
mining impacts in Bristol Bay's headwaters was based on requests from 
local stakeholders--native Alaskans, commercial and recreational 
fishermen, lodge owners, and others--to protect the Bristol Bay 
watershed and the 14,000 recreational and commercial fishing jobs and 
$1.5 billion in annual economic activity that it supports. The EPA has 
done a thorough and commendable job of assessing the risks of mining to 
the world class fisheries of the Bristol Bay region. When the EPA 
released its second draft of its watershed assessment, more than 
650,000 commenters expressed support for protecting the region's 
fisheries and for EPA's assessment. Across the country, three out of 
four comments received were supportive of the EPA's efforts, and in 
Alaska, the EPA's assessment was supported by 84 percent of statewide 
residents and an incredible 98 percent of Bristol Bay regional 
residents.
    The watershed assessment found that even in a best case scenario, 
mining would destroy 87 miles of salmon streams and 2,500 acres of 
wetlands, and create 10 billion tons of waste which would be stored in 
perpetuity in one of the most seismically active regions in the State. 
America's foremost professional fisheries group, the American Fisheries 
Society (AFS), and hundreds of leading scientists across the Nation 
agree with TU that the EPA's estimates of habitat and fisheries loss 
are conservative.
    A frequent criticism of the draft watershed assessment is its 
reliance on a ``hypothetical'' mind proposal. There is not very much 
that is hypothetical about this mine. Northern Dynasty Minerals, one of 
the two principals in the Pebble Limited Partnership (PLP), presented a 
mine plan to the Securities and Exchange Commission to secure investor 
support for the Pebble project, and has since lauded the mine's 
potential benefits through an economic study based on reasonable mining 
scenarios in the Bristol Bay region. PLP has claimed that a mine 
scenario does not exist, while at the same time touting the economic 
value of it to State and Federal officials and their shareholders. PLP 
cannot have it both ways. Senator Murkowski recently agreed with many 
stakeholders in Alaska that PLP cannot continue on its path without 
unveiling a mining plan to the public.\1\
---------------------------------------------------------------------------
    \1\ Letter from Senator Murkowski, July 1, 2013: http://
www.energy.senate.gov/public/index.cfm/files/serve?File_id=3b2efb37-
cdd2-4203-8568-72c405e2a4e4.
---------------------------------------------------------------------------
    Perhaps most telling about the risk presented by this project is 
the recent decision by Anglo American, one of the world's biggest 
mining companies, to withdraw from the Pebble Partnership, stating that 
they were going to ``prioritise capital to projects with the highest 
value and lowest risks.'' The company did not mention the EPA as a 
reason for its decision to withdraw. When specifically asked whether 
their outlook on regulations and permitting had changed, an Anglo 
American spokesman reiterated that ``our decision to withdraw from the 
project is the result of an internal prioritisation of the many 
projects that we have in our portfolio.'' \2\
---------------------------------------------------------------------------
    \2\ Why Miners Walked Away From the Planet's Richest Undeveloped 
Gold Deposit. Bloomberg Businessweek, September 27, 2013: http://
www.businessweek.com/articles/2013-09-27/why-anglo-american-walked-
away-from-the-pebblemine-gold-deposit.
---------------------------------------------------------------------------
    If ever the EPA had the authority, and indeed the necessity to 
protect a body of water, Bristol Bay is it. The EPA has properly 
assessed the science and allowed a thorough public response to its 
findings. A coalition of businesses, commercial and recreational 
fishermen, jewelers, outdoor industries, and Alaskan Natives, 
represents stakeholders from across the political spectrum who are 
united in the common purpose of protecting some of the most productive 
salmon and trout habitat on the planet that possesses huge commercial, 
subsistence and recreational value.
    We believe it is in everyone's best interest for EPA to use its 
Clean Water Act authorities to set prudent limits on industrial-scale 
mining that will both protect the region's unsurpassed fishery 
resources and the economies and communities they sustain, while 
clarifying for potential mine developers what is and is not permissible 
so they can make informed business decisions.
    Finally, we urge the Subcommittee to listen carefully to the voice 
of Alaskans on this matter. We appreciate the Subcommittee's invitation 
to Norm Van Vactor, a commercial fisherman and CEO of the Bristol Bay 
Economic Development Corporation, who will provide strong testimony in 
support of protecting Bristol Bay. Former Alaska State Senate President 
and Republican Majority Leader Rick Halford also opposes the mine, 
saying ``Mining can do a lot of good things, but the bottom line is 
that this particular place is the last place on earth we should have a 
sulfide mine so large that it dwarfs the largest open pit mine in North 
America.'' \3\
---------------------------------------------------------------------------
    \3\ EPA Could Move to Stop Pebble Mine, Flyfisherman.com, May 14, 
2012: http://www.flyfisherman.com/2012/05/14/epa-could-move-to-stop-
pebble-mine/#axzz2h9dVs3v3.
---------------------------------------------------------------------------
    The Subcommittee should consider the thousands of Alaskans who 
commented on the watershed assessment, the majority of whom oppose the 
mine and support EPA's scientific assessment. We urge the Subcommittee 
and other decisionmakers in this process to join local Alaskans in 
support of the scientifically and economically justified need to 
protect Bristol Bay.

            Sincerely,
                                               Steve Moyer,
                              Vice President of Government Affairs.

                                 ______
                                 

    Mr. Lamborn. OK. We will now go into recess for roughly 30 
minutes. Thank you all for your patience. As soon as we are 
done voting we will come back and resume.
    [Recess.]
    Mr. Lamborn. The subcommittee will come back to order. 
Thanks for your patience, everyone. We are done voting, so we 
won't have to run off again. We can stay here and finish up. 
And this is an important hearing within the jurisdiction and 
oversight of the subcommittee, so I am glad we can do this.
    I am going to start out asking my first question to Mr. 
Hamilton.
    You mentioned, in your testimony, the tsunami of objection 
letters that were sent to mining companies in West Virginia 
after President Obama was sworn in. Can you describe the nature 
of these objection letters concerning coal mining in West 
Virginia?
    Mr. Hamilton. The letters, for the most part, appeared to 
be form letters that were sent to every mining operation in the 
State that had either a permit pending or recently issued 
permit, or a permit modification before either the Corps of 
Engineers or EPA. And they were objection letters objecting to 
the permit without specificity.
    Mr. Lamborn. And how many, what number are we talking 
about, what quantity?
    Mr. Hamilton. A hundred.
    Mr. Lamborn. And they were all the same?
    Mr. Hamilton. Yes.
    Mr. Lamborn. Well, that begs the question. Were they 
thought out, or were they just done en masse to start 
objections for the sake of objections?
    Mr. Hamilton. They appear to be en masse, and they were 
issued either the day of or the day following the President's 
inauguration in----
    Mr. Lamborn. I don't see how they could have had time to 
investigate 100 different pending permits and send out 100 
letters on a one-by-one basis. That is not possible.
    What is the coal mining industry's relationship in West 
Virginia with EPA? What was it like prior to President Obama 
being sworn in?
    Mr. Hamilton. EPA, as it relates to its role in the State 
of West Virginia, has always maintained an oversight role with 
the U.S. Corps of Engineers, in an oversight capacity also with 
the Office of Surface Mining, but primarily with the Corps of 
Engineers. They were involved with several major comprehensive 
environmental impact statements that were brought about for 
various reasons throughout 2000 to 2007 or 2008. They had a 
presence, but the presence was principally in an oversight 
capacity.
    Mr. Lamborn. OK, thank you. What do you think, in more 
general terms, of the EPA's use of science as it relates to 
coal mining and the operation of coal-fired electrical plants?
    Mr. Hamilton. Well, it appears that most of the science 
relied on by the EPA as it relates to mining operations and 
coal-fired generating facilities is science basically held by 
the agency, reviewed by the agency, and relied on by the 
agency. There is a widespread disagreement on a lot of the 
science that the agency relies upon to make its policy in 
regulatory decisions.
    Mr. Lamborn. Has it all been made public?
    Mr. Hamilton. Some has, some hasn't.
    Mr. Lamborn. Do you have any disagreements with some of the 
specific applications of their science, or as it might compare 
to other findings?
    Mr. Hamilton. Quite honestly, we have been put in a 
situation where we suspect and have disagreements with 
practically every aspect of the agency's rulemaking and 
policymaking process.
    Mr. Lamborn. Can you give me an example in my last 58 
seconds here?
    Mr. Hamilton. Well, I am not sure, maybe if I could have 
some clarification to the question.
    Mr. Lamborn. OK. I will tell you what. Ponder that a minute 
in case we have a second round.
    Mr. Hamilton. OK.
    Mr. Lamborn. Mr. Fogels, you said States should have more 
flexibility in mining regulations. What could Congress do to 
achieve that?
    Mr. Fogels. Thank you, Mr. Chairman. We believe that there 
could be some flexibility built into both the Clean Water Act 
and CERCLA, and maybe some other Federal laws, that might allow 
the States to a little more effectively manage their natural 
resources. In the Clean Water Act, we are currently evaluating 
whether the State of Alaska should go for primacy in wetlands 
permitting.
    And the big issue for us there is which wetlands do we 
actually get jurisdiction over. We feel the Clean Water Act is 
a bit ambiguous in that. And we would certainly think that it 
is worth discussing whether the Clean Water Act could be 
tightened up to allow the States to take the majority of the 
wetlands within their States.
    Mr. Lamborn. Thank you very much. We are now going to go to 
Representative Fleming. Oh, excuse me. Representative Fleming?
    Dr. Fleming. Thank you, Mr. Chairman. Mr. Van Vactor, the 
title of today's hearing is, ``EPA Versus American Mining 
Jobs,'' and you have heard testimony that really focuses on the 
impact of NPA--excuse me, EPA regulations, and over-the-top 
enforcement of regulations, guns drawn, you know, SWAT-style 
tactics, and so forth. And I am enamored--excuse me. I am moved 
by the fact that you are enamored with the EPA in all of that.
    But you note that the economic impact of the Bristol Bay 
fisheries, and particularly the salmon fishery, rather, to the 
economy of the Bristol Bay region. Are you aware of the 
proposed EPA regulations on discharges from fishing vessels?
    Mr. Van Vactor. Mr. Congressman through the Chair, first of 
all, I don't know that I am enamored, other than I said I was 
in support of EPA action in Bristol Bay.
    Second, as it relates to the commentary about guns drawn, I 
can't speak to the situations that folks like Mr. Sheldon 
experienced----
    Dr. Fleming. Well, you weren't there, neither was I----
    Mr. Van Vactor. Right.
    Dr. Fleming. So there is no reason to get in it. But the 
point is, what about the EPA regulations for fishing vessels? 
That is what I am asking about.
    Mr. Van Vactor. What I can speak to, sir, is that, as it 
relates to large fishing vessels, large fishing processors such 
that were utilized in the Bristol Bay salmon fishery, I am 
somewhat familiar with the discharge permits required by those.
    Dr. Fleming. Do you agree with them?
    Mr. Van Vactor. Yes, I do.
    Dr. Fleming. And you are not concerned about the effect on 
the fishing industry, the impact, the economic impact, and the 
problems that that may cause?
    Mr. Van Vactor. I am always concerned about options and 
deviations. But at the end of the day, the rules and 
regulations that are in place provide for a level playing 
field. We know who we have to talk to to get discharge 
permits----
    Dr. Fleming. If it caused a 30 percent decline in your 
revenues, and unemployed 3,500 people from the fisheries 
industry, would you be comfortable with that?
    Mr. Van Vactor. For the sake of the greater good, and I am 
not sure where you are getting those statistics----
    Dr. Fleming. Well, I am giving an example here with the 
mining industry. Your fellow witness next to you, this is what 
he said has happened to the mining industry. And so, I am just 
simply applying that to the fishing industry, and to see if you 
would feel the same way about the EPA if there was a war on 
fishing, the way there has been a war on coal.
    Mr. Van Vactor. If fishing vessels, sir, were discharging 
in an area that was improper, that was distracting and 
destroying the habitat and the run, we would be willing to 
forego that harvest.
    Dr. Fleming. But----
    Mr. Van Vactor. And the jobs associated with it.
    Dr. Fleming. But again, an all-out--again, reduction of 30 
percent production, the retroactive removal of permitting, the 
loss of 3,500 jobs, you would be comfortable with that type of 
loss, and also vessels being boarded by armed people with flak 
jackets and, I guess, rifles or shotguns, as we have heard 
discussed, would you be comfortable with that, Mr. Van Vactor?
    Mr. Van Vactor. Mr. Congressman through the Chair, let me 
speak to that, I guess your last comment, first.
    I can speak to dozens, if not hundreds, of boarding 
incidents that would have taken place just as late in 2013 
which are considered routine in our industry. The State of 
Alaska, we refer to them as the brown shirts; they are the 
enforcement division for Fish and Game, boards our vessels all 
the time.
    Dr. Fleming. Without identifying themselves, they typically 
board the vessel and start picking up equipment, looking 
around, and not even identifying themselves?
    Mr. Van Vactor. They come on board, they are uniformed, for 
the strict purpose of identifying and checking crewmen's 
licenses.
    Dr. Fleming. So then, what effect on the Bristol Bay salmon 
fishery would there be if EPA decided to enforce the discharge 
regulations by sending these armed enforcement guards? What 
would be the impact? How would the industry local to you there, 
how would they react to that?
    Mr. Van Vactor. Mr. Congressman through the Chair, I have 
been in the seafood side of the industry for close to 38 of my 
40 years in Bristol Bay. And in many instances I have been 
inspected by EPA investigators. In my case, when they showed up 
they showed up with state troopers who were armed.
    I don't know what the different protocols are for different 
agencies, depending upon the situation they are in, and I don't 
think it is my place to question that.
    Dr. Fleming. OK. So if they show up, state troopers with 
guns and so forth, does that mean that people who are fishermen 
and have boats somehow are a threat to law enforcement? Why 
would they show up with all of that armament?
    Mr. Van Vactor. Mr. Congressman through the Chair, again, I 
don't want to question our law enforcement agencies for the 
protocol in which they respond to specific situations.
    In my particular region, we have a bill that is being 
sponsored by our State representative right now, asking the 
State of Alaska to allow our village public safety officers to 
be armed, the very reason being that just 2 months ago one of 
our community members was killed in the act of trying to 
approach a house where a domestic violence event was taking 
place.
    Dr. Fleming. Well, that is domestic violence. That is a 
completely different subject.
    Well, my time is up, Mr. Chairman. Thank you.
    Mr. Lamborn. Representative Cramer.
    Mr. Cramer. Thank you, Mr. Chairman and members of the 
panel, witnesses, for this irrevocable gift of your time today. 
I just want to focus in on one line of questioning, I guess, 
and perhaps statements made earlier about the dispute, I guess, 
that this administration is waging a ``war on coal.'' And, in 
doing so, I want to remind folks that it was earlier this year 
that a White House climate advisor, in anticipation of the 
President's climate change speech, I think it was in June, told 
the New York Times that a war on coal is exactly what is 
needed.
    I would also want to draw attention to the previous 
Chairman of this Committee, who said that, and this was 
Chairman Nick Rahall, a Democrat, who said, ``I am dead set 
against the EPA and their scheme to issue emission standards 
that would make it next to impossible for new coal-fired power 
plants to be constructed. This callous, ideologically driven 
agency continues to be numb to the economic pain that their 
reckless regulations cause. Today's rule is just the latest 
salvo in the EPA's war on coal, a war I have unwaveringly 
soldiered against. And I will work tirelessly to prevent such 
an ill-conceived and illogical plan for moving forward.'' This 
was Democrat Chairman of this Committee, Nick Rahall.
    Do you feel like you are in a war on coal, each of you?
    Mr. Hamilton. Yes. We certainly are, in the State of West 
Virginia, where Democrats and Republican office holders alike 
have joined together to try to push back and bring some sanity 
back to the level of oversight and enforcement by our Federal 
agency.
    Mr. Cramer. I can tell you that in North Dakota, where I 
was once a coal regulator, the Democrat and Republican members 
of our delegation are united as well, and all refer to it as a 
war on coal.
    Sir, do you feel like you are fighting a war on coal?
    Mr. Maier. I am a gold miner, so the coal question----
    Mr. Cramer. Certainly a good point, yes.
    Mr. Maier. But I can see it from the perspective, but I am 
not----
    Mr. Cramer. You probably feel more like you are in a war 
than most people, as a matter of fact.
    Mr. Maier. Yes. Well, with the overwhelming Federal 
regulations, if we can't get help, I mean I am just here 
representing small families, small miners. And we are, this is, 
the final straw, if we can't stave off these overwhelming 
regulations, we can't survive.
    Mr. Cramer. Yes. Let me ask you, because one of the things 
that I sometimes find somewhat frustrating is when debate--see, 
I like rigorous debate, I enjoy it. And I like it to be civil, 
but I also like it to be honest. And is calling it a war on 
coal, from your perspective, necessarily all that bad a 
characterization of what we are up against?
    Mr. Van Vactor. Congressman Cramer through the Chair, you 
are looking at me, sir, so I am assuming you are----
    Mr. Cramer. I am talking to you, yes.
    Mr. Van Vactor. One, I am not an authority on the coal 
mining industry, and so I would be happy to pass along some 
salmon recipes and invite all of you to Alaska and take you 
around the wonderful state, Bristol Bay. So, specifically as it 
relates to that issue, I will defer.
    I don't see this as a war, sir. I see these as separate 
issues, issues that are all delicate, and that we need to take 
into balance. I come from a family of South Dakota gold miners 
in the Black Hills. And I find myself in Alaska, harvesting 
fish.
    Mr. Cramer. Yes. And fair enough. I would just say, Mr. 
Chairman, my point that I wanted to make is I don't know that 
it is so dishonest; well, personally, I think it is very honest 
to refer to it as a war on coal. And I don't really know why my 
friends who feel like they are fighting the other way are 
ashamed to call it a war on coal. I mean, when the 
administration themselves have referred to it as a war on coal, 
I don't know, and the previous Democrat Chairman has referred 
to it as a war on coal.
    So, you know, I appreciate what you are up against, and I 
certainly appreciate those of you that are especially standing 
up for the little guy, as Representative Young referred to, or 
the working men and women whose livelihoods are at stake here. 
And I think that the economic pain that overreach of regulation 
imposes upon the working men and women and the businesses of 
our country are not being, adequately being considered, at all.
    So, I appreciate all of your testimony with regard to 
whatever industry it is, the area, and all sides. And I yield 
back.
    Thank you, Mr. Chairman.
    Mr. Lamborn. Thank you. Representative Benishek.
    Dr. Benishek. Thank you, Mr. Chairman. I am Dan Benishek. I 
represent the northern half of Michigan, where there are a lot 
of mining opportunities as well, not coal, but iron, copper, 
gold in our area. And we have had a lot of trouble with the 
EPA, getting permitted to mine the resources that are there, 
although our area has been a mining area for over 100 years, 
easily. We have multiple difficulties dealing with the EPA to 
get these mines permitted.
    But I just kind of wanted to, and it is very frustrating to 
me, talk to you, Mr. Maier, about this episode you had with the 
EPA. You have been in this area for a decade, as I understand, 
right? And you have dealt with regulatory agencies in the past, 
right?
    Now, apparently, this recent raid was quite a different 
episode for you. Can you tell us a little bit more about that? 
Maybe I missed the details in your testimony.
    Mr. Maier. Yes. Linda Kile, who is here with me, I didn't 
have firsthand experience, because they flew over me multiple 
times, but they didn't come on the ground, because I am 30 
miles off the highway. It is a little more complicated to get 
to my place. But Ms. Kile was visited, and she has a very 
disturbing story.
    But, yes, we deal with regulators on a constant basis. And 
when we do have State regulators come, or BLM come to inspect 
us, they are always polite. Yes, they come armed because of the 
environment we live in. But they will come out and introduce 
themselves. They find us, they know us by name. We know who 
they are. And they do their inspections, they go. If we are 
doing something wrong, they will say, ``Hey, you guys should 
straighten this out.'' And normally we have no problems at all.
    Dr. Benishek. So this episode apparently was more of an 
intimidating one? I don't want to put words in your mouth, but 
tell me more about it.
    Mr. Maier. Well, we feel, and all the miners feel, that it 
was very intimidating. It was very disconcerting, that this can 
happen. You know, just to have regulators come in like they 
did, in the full armor, body armament, and you know, with their 
automatic weapons, shotguns, just to surround people and not 
bother to even introduce yourselves. Yes, it was very 
disconcerting. But----
    Dr. Benishek. They didn't introduce themselves? They didn't 
have a warrant of any kind?
    Mr. Maier. No.
    Dr. Benishek. Did they take anybody away with them?
    Mr. Maier. No, they did not.
    Dr. Benishek. Did they make any effort to contact you 
before they showed up, to notify you that they were coming?
    Mr. Maier. No. In fact, in the EPA's statement, they said 
it was casual and consensual. Well, no, nobody knew they were 
coming. In fact, they did have the DEC in the loop, the State 
Department of Environmental Conservation. But as far as the 
rest of the agencies we normally--well, the BLM knew about it, 
too, because we were trying to find out where the list came 
from of the mine sites they were going to visit. And so far we 
have no answers from the EPA or the BLM. They kind of just 
point their fingers at each other.
    Dr. Benishek. Each other, yes.
    Mr. Fogels, you know, I mentioned that we have had trouble 
with the EPA, as well. I mean we tried to get this county road 
built in my district to service the mine. And, you know, the 
rules the EPA put out there that we had to comply with changed 
on a monthly basis. So it was difficult to comply. And also, 
they were so unreasonable. They wanted a moose-proof fence for 
the entire length of the road, along with designated moose 
crossings, which I never heard of, ever in the history of the 
country, having 20, 44 miles of moose-proof fencing. These are 
really outrageous demands, never heard of before.
    Did you have experience with similar type of things in your 
job?
    Mr. Fogels. Yes, Mr. Congressman. I would say that we do in 
Alaska have similar experiences. I talked earlier in my 
testimony about the Environmental Protection Agency's 
propensity now to elevate 404 decisions, after the Army Corps 
has made them, to a higher level. And then they will deem water 
body and aquatic resource of national importance, and then that 
just sort of results in a whole bunch of new requirements and 
stipulations in the Army Corps' wetlands permit.
    Dr. Benishek. A body of water such as what?
    Mr. Fogels. Well, one example, we were permitting a bridge 
across the Tanana River, which is a large, glacial river near 
Fairbanks. And the EPA deemed that water body an aquatic 
resource of national interest. And so I remember their 
justification was it was a tributary to the Yukon and it had 
salmon in it. And so, many rivers in Alaska have salmon in 
them, and a lot of rivers in Alaska are tributaries to the 
Yukon. So, by that definition, just about any river in interior 
Alaska would be an aquatic resource of national interest.
    Dr. Benishek. All right. I think my time is up. Thank you.
    Mr. Lamborn. Representative Daines.
    Mr. Daines. Thank you, Mr. Chairman. I am Steve Daines. I 
represent the State of Montana. So you are seeing the entire 
congressional delegation from Montana here, as the at-large 
Member. I want to thank you all for the testimony today, and I 
want to start with Mr. Hamilton.
    You know, in Montana, we have the largest coal reserves in 
the country. And often times that is forgotten. We think about 
Big Sky County, which I am a fifth-generation Montanan, and I 
love to spend a lot of time above 10,000 feet and fly fishing 
and hunting and recreating outdoors. We also have tremendous 
natural resources in coal, oil, and gas. And more recoverable 
coal than any other State in the Union.
    In fact, the coal mining industry employs over 1,200 people 
in our State. We get more than half of our electricity from 
coal, and that keeps energy prices low. Unlike a lot of the 
movie stars that have moved out to Montana and built their 
starter castles, most Montanans are living paycheck-to-
paycheck, and are fighting to try to make ends meet, as they 
fight for their families and raise their kids.
    We are already starting to see, in my State of Montana, the 
devastating consequences of President Obama's war on coal. And 
I won't get into the debate whether it is a war, what have you. 
I mean it is semantics, I suppose. But I do know these 
regulations are starting to have a tremendous impact on the 
business.
    But let me just say this. Since elected to Congress here 
last fall, I have been developing great relationships with our 
tribal leaders in Montana. And normally they don't come 
knocking on the door of Republicans. I will tell you what. They 
are knocking on my door, and we are having some great 
discussions about their future and their vision for prosperity 
on the reservations.
    One of my dear friends, in fact, I walked to kindergarten 
with his cousin, Rachel Old Coyote, her cousin is now Chairman 
Darrin Old Coyote of the Crow Tribe. Let me tell you what 
Chairman Old Coyote said in Montana just a month ago in front 
of a couple of U.S. Senators in Missoula. He said this, and I 
quote, ``A war on coal is a war on our families and our 
children,'' Crow Tribal Chairman Darrin Old Coyote said.
    And here is why. They have 50 percent unemployment on the 
Crow reservation. It would be much, much higher, if it weren't 
for the fact that 70 percent of the coal mining jobs there are 
held by Crow members. In April they signed a 145-million-ton 
coal deal with Westmoreland. In June, a 1.4 billion-ton deal 
with Cloud Peak. The revenues, by the way, from these mining 
operations on the Crow reservation make up two-thirds of the 
Tribe's non-Federal budget. It is very, very important, and the 
Tribes are very concerned that Washington, DC and the overreach 
of the EPA now and these regulations are having an effect on 
their ability, their sovereignty to develop their resources for 
the future and for their children.
    In fact, the consequence of this war on coal, the J.E. 
Corette Power Plant in Billings, which was directly impacted by 
the EPA's Federal regs, is going to be mothballed in 2015. That 
is in Billings, Montana. The closing of that plant is $3 
million a year in lost tax revenue to the county, and 27 good-
paying union jobs. Coal in Montana has already accounted for 
$1.9 billion in tax revenues, the severance tax in the State of 
Montana, which helps us fund infrastructure and so forth in a 
State that struggles to always make ends meet. Thankfully, we 
are running a surplus right now in Montana, but in part due to 
a strong Ag economy and a natural resource economy.
    So, with that as backdrop, Mr. Hamilton, I would like to 
ask you about the EPA's new performance standards, and how it 
relates to coal-fired power plants. It makes plain good 
business sense to always look forward to where the industry is 
headed. As Wayne Gretzky said, ``You skate to where the puck is 
headed.'' How do you see the new proposals impacting the coal 
industry, and what does that mean for the cost of energy for 
American families?
    Mr. Hamilton. Thank you. We are very concerned over those 
new performance standards that were alluded to by the other 
gentleman on the committee. And, of course, he indicated about 
a proposed standard. Those standards have now been released. 
They were released last month, in September, and they establish 
a baseline, an emission baseline that just cannot be met today 
with existing technology that is available to be employed on 
coal-fired power stations.
    We reference a lot of the administrative and regulatory and 
policy issues that have served to cut our permits off, that 
have served to heighten the enforcement activities of our 
Federal Government. It is often referred to those of us in the 
business as a death by 1,000 cuts, because that is what has 
happened. When you strangle and have a permitorium for years, 
you basically cutoff new opportunities, new commerce.
    The new source performance standards for new coal-fired 
power plants all but ensures that there will never be--never 
be--another coal-fired power generator financed or constructed 
in this country. It effectively eliminates coal and coal-fired 
generated electricity from the all-of-the-above energy strategy 
that I have heard so much about. It completely removes coal 
from being a consideration, going forward.
    Mr. Daines. OK. I am out of time, Mr. Chairman.
    Mr. Lamborn. Thank you. Representative Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here.
    Just to follow up on what was being said, I come from east 
Texas, and we do have lignite. Not the quality of the coal that 
you gentlemen are used to seeing. But we have over 1,000--
actually, a lot more than that that are related to the coal 
being mined and the energy production.
    But something I have noticed. When people are out of work 
and they can't find jobs, they don't seem to be nearly as 
interested in the environment. I don't know if you have noticed 
that in the States from which you come, but it seems like if 
there is industry going that is being regulated to make sure it 
is not polluting, people have jobs, they can have the luxury of 
caring about the environment. I am just curious.
    Mr. Fogels, how bad has the air and water gotten during the 
years of coal mining, at least the last 10 or 15 years?
    Mr. Fogels. Congressman, thank you. Well, in Alaska we are 
proud of our air and water quality. It is pretty spectacular. 
It has been for a long time, and it continues to be to this 
day. We have one major coal mine in Alaska that operates, and a 
number of, you know, I guess in comparison to the Lower 48, 
fairly small coal-fired power plants. But I think the 
regulation is maintaining the environmental quality quite 
nicely. All six of our----
    Mr. Gohmert. Well, do you care if Alaska gets dirty water 
or air?
    Mr. Fogels. Yes, I would, Congressman.
    Mr. Gohmert. I mean you are kind of a trustee of it.
    Mr. Fogels. Absolutely. That is my job, to protect it.
    Mr. Gohmert. Because I get the impression when EPA 
officials come out, many times they act as if they are the only 
people in the world that care about the environment, but they 
don't seem to care anything at all about the people. And yet, 
it seems like the more I have gone around the different States, 
including Alaska, the State officials care every bit as much, 
and maybe more, than anybody at the EPA about the environment. 
I would imagine that the people I have not met in State 
government in Alaska feel the same way, don't they?
    Mr. Fogels. Oh, absolutely, Mr. Congressman. And we are 
very proud of our record. Again, we have six operating mines. 
And we hear a lot of rhetoric about how bad mining can be, 
environmentally, and a lot of the problems. Most of those are 
legacy problems. Our problems in Alaska, we have good mines 
with good environmental records, and we are proud of our 
regulatory----
    Mr. Gohmert. Well, let me ask Mr. Hamilton. You have seen 
people out of work that have worked in the coal industry. You 
have seen people that work in the coal industry. When people 
are unemployed, and you have a bunch of folks that are, do you 
see them being able to care as much for the environment as they 
do when they are employed?
    Mr. Hamilton. I think they do care about the environment, 
and I think they do what they can to maintain a good 
environment, as it relates to the air and the water. I am not 
sure they appreciate trading their job for perhaps an 
incremental increase in environmental quality that is 
questionable.
    Mr. Gohmert. Yes.
    Mr. Hamilton. I think therein lies the personal conflict.
    You know, we are very proud of our environment. You know, 
we are a heavily mining-intensive industry, but we have one of 
the best tourism businesses, you know, that you will find 
throughout the country. People----
    Mr. Gohmert. You have a gorgeous State.
    Mr. Hamilton [continuing]. Come to West--I mean we are a 
shining example that you can have both a robust, energy-
producing industry, and a pretty pristine environment. In fact, 
the Boy Scout Jamboree, 50,000 Boy Scouts chose West Virginia 
as their home. And it just so happened that that parcel of land 
used by the Jamboree--50,000 come from all over the country----
    Mr. Gohmert. Right.
    Mr. Hamilton [continuing]. Every single State was 
represented--is on a reclaimed mine land.
    Mr. Gohmert. Well, and why wouldn't they? As John Denver 
said, it is almost heaven. If you want to get all the way 
there, you can come on down to Texas and we welcome you there. 
But----
    Mr. Hamilton. Well, we joined the Big 12. That gets us a 
little closer.
    Mr. Gohmert. Well, that is true, that is true. But, anyway, 
there seems to be a happy medium somewhere in there. And I 
don't think the EPA has been as concerned, or has recognized 
the importance of having a vibrant economy, because everywhere 
you go in the world, if the economy has tanked, if it is bad, 
they care about the environment, but they do not have the 
luxury of doing anything about it.
    So, thank you for all that you gentlemen do to try to make 
this, your State, this world, a better place. Thanks for being 
here.
    Mr. Lamborn. OK, thank you. We will have a second, but 
brief, round of questions.
    And I would like to ask you, Mr. Fogels. There has been 
some concern expressed to me a little bit earlier. I was 
talking to some folks in the audience about the sensitive 
waterways and fish habitat and so on in the area of Alaska that 
we are talking about here. And there is the strong belief that 
a mine of this nature, a mine of this size, would be impossible 
to open and operate without an adverse impact on fish and water 
quality.
    Is it possible that the EPA and the State of Alaska could 
impose conditions that would have to be followed by a mine 
operator that would prevent such damage, is it impossible to 
have the two together?
    Mr. Fogels. Mr. Chairman, we believe that it is definitely 
not impossible to have the two together. The issue we are 
facing is, even though the Bristol Bay watershed assessment has 
this hypothetical mine design, that is not really the mine 
design that will be submitted to us if the company decides to 
go forward. We need specific plans to evaluate what the real 
environmental impacts will be, and that is the process that 
should take place. And in that process, you can figure out the 
engineering details of how the environment would be protected. 
Then we can judge whether that would work or not.
    I mean engineering science is amazing. You can always beef 
up the systems at a cost. So it may be that those protections 
cost too much for the mine to actually be economical. We don't 
know that yet. All we are saying is that we need the 
opportunity to let the real process run its course, and let the 
experts evaluate the mine design. And it may very well be 
possible to design something that protects the fisheries in 
Bristol Bay.
    Mr. Lamborn. So you are saying it is premature to draw that 
conclusion absolutely.
    Mr. Fogels. Yes, sir.
    Mr. Lamborn. What has the EPA done in a preemptive way that 
seems to be jumping the gun?
    Mr. Fogels. Well, Mr. Chairman, I think the whole Bristol 
Bay watershed assessment is jumping the gun. They are looking 
at a preemptive veto of wetlands permitting in eight million 
acres of our lands.
    So you know, again, Pebble aside, this is not about Pebble 
for us. It is about putting new regulations on our land that 
would hamper the way we can develop it in the future. And they 
are not considering best practices, they are not considering 
stipulations, mitigation measures. And that, to us, is more 
than troublesome. We are very alarmed by this whole prospect of 
perhaps losing almost 10 percent of our land entitlement.
    Mr. Lamborn. Mr. Hamilton, in West Virginia does extensive 
coal mining and sport fishing coexist?
    Mr. Hamilton. Yes. They do coexist in almost every single 
watershed where mining takes place. There is example after 
example of stream water quality improvement that is made on an 
annual basis. And it has been occurring for decades and 
decades.
    Mr. Lamborn. And can you tell me, bring me up to date on 
the West Spruce Mine operation? Is that the correct name?
    Mr. Hamilton. Spruce Number One Mine.
    Mr. Lamborn. Spruce, can you bring me up to date on that?
    Mr. Hamilton. And this is probably, yes sir. This probably 
ranks amongst one of the most studied mining complexes that you 
will find anywhere not only in our little State, but anywhere 
in the country, or maybe even the world. It underwent one of 
the most stringent, comprehensive environmental assessments of 
any industrial permit of that magnitude, or operation of that 
magnitude.
    In fact, I think it was 6 or 7 years that all the pre-
mining data for the permit, all the engineering work, was being 
developed. It was being developed in concert with State and 
Federal agencies, the Office of Surface Mining, the West 
Virginia Department of Environmental Protection, the U.S. Army 
Corps of Engineers, and even EPA, all eventually signed off on 
that permit.
    It was signed off on and approved in 2007, only to have--
and there was equipment put, several millions of dollars of 
development, equipment spreads were put onsite, the 
infrastructure to accommodate the mine was developed, miners 
were employed. And when this administration took office, they 
initially threatened to veto that permit, wanted to study it 
more.
    And, quite frankly, you know, we have heard from 
practically every manufacturer, every other industry around 
this country that is involved with the Corps and require a 404 
permit questioning the specifics, the conditions. Because, 
quite frankly, they were concerned that if EPA could go back 
and revoke a lawful approved permit, that could set a precedent 
and happen elsewhere.
    That mine is idle today. That mine has been idled. EPA has 
followed through with their plans to rescind and veto that 
permit. They first tried with our State, then they tried with 
their own sister agency, U.S. Corps of Engineers, that went 
through the concerns raised by the current EPA Administration, 
point by point, and answered every single concern, addressed 
every single condition. This is the U.S. Corps of Engineers, 
and they basically joined with the West Virginia DEP and said, 
``That mine and that permit ought to continue as it was 
approved, because of all the years of study and evaluation that 
went into it.'' And that is being litigated today.
    The company met with EPA. They had a series of meetings 
that went over months and months, and they tried to accommodate 
every concern, redesign the mine, reengineer the mine, take 
into consideration, you know, all the economics, the geology, 
and just could not meet the demands of EPA.
    Mr. Lamborn. Thank you for the update. Representative 
Gohmert.
    Mr. Gohmert. Thank you again. I want to ask a question 
again of Mr. Fogels, because, as you know, we are here about 
the U.S. Fish and Wildlife Service and mining, whether or not 
they can be compatible. But this administration obviously is 
trying to preemptively close off an area in Alaska that is the 
size of West Virginia. And, according to the U.S. Fish and 
Wildlife national survey of fishing, hunting, and wildlife-
associated recreation found that 305,000 fishermen in West 
Virginia contributed $750 million to the economy in West 
Virginia, only on sport fishing.
    So, I ask you, Mr. Fogels, do you find that in Alaska that 
mining and fishing seem to get along there? And if West 
Virginia, that obviously has mining, and has that significant 
amount of fishing, can support nearly a billion dollars in 
income from fishing, do you think the same area, the same sized 
area in Alaska, could also accommodate one mine?
    Mr. Fogels. Mr. Congressman, I think to answer your 
question, yes, I do believe that some type of mining activity 
could certainly happen on that eight million acres with very 
little impact to the fish, and maintain the vibrant fisheries 
that are for both subsistence users, sports users, and 
commercial users. There is no question that we have the 
technology to allow mining to happen within that eight million 
acres responsibly to coexist.
    We are living proof of that already. Our mines in Alaska 
already have healthy fish populations downstream. Some mines 
have actually improved the habitat for and the water quality 
for fisheries. So modern mining and the modern mining 
regulatory process is working in Alaska, and it can work in 
Bristol Bay. Whether it can work for a mine the size of Pebble, 
again, as I mentioned before, we don't know yet, because no one 
has given us the plans yet.
    Mr. Gohmert. But you certainly think that is conceivable. 
And the plans, once submitted, would have to be approved, 
right?
    Mr. Fogels. Yes, sir. Very thoroughly reviewed.
    Mr. Gohmert. And I might mention to you some years back, 
actually my freshman term here, we had field hearings around 
the country, and we had hearings in Washington State. And we 
had heard from one power company there that they were required 
to, well, it cost them $8 million that the Federal Government 
cost them to preserve fish in a river. And the $8 million lost 
or cost actually saved 20 salmon.
    And, at the time, I raised the issue wouldn't it be 
possible to have a whole lot less money than that produce a 
whole lot more fish, salmon, to be exact. And there were groups 
there that said, ``Absolutely not. There is no fish you can 
ever produce in a hatchery that could ever be the same in any 
way, really, as the fish that are spawned in the wild.'' And 
since then we have the benefit of information that indicates 
you really can't tell the difference, if they are hatched in a 
hatchery, or they are hatched out in a stream.
    So, I just encourage you to keep that in mind, as well. 
They can work together. And, actually, if nature had its way, 
there would be a lot more extinct species around this country 
than there are now. But thank you all for being here today.
    Mr. Lamborn. I want to thank everyone also for being here, 
and you have come a long way in many cases, and we appreciate 
your testimony and appreciate answering our questions.
    Members of the committee may have additional questions for 
the record.
    And if you are given those, I would ask that you respond to 
those in writing.
    If there is no further business, then without objection the 
committee is adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

            Prepared Statement of Congresswoman Niki Tsongas
    It is absurd that we are holding this hearing without a single 
witness from the Environmental Protection Agency. As my friends on the 
other side of the aisle well know, the Administration was unable to 
send a witness because of the ongoing Republican shutdown and the 
Federal worker furloughs. The Federal Government is shut down today for 
one reason: we have been denied any chance of voting on the clean 
funding bill passed by the Senate. No piecemeal approach, no temporary 
fix here or there is going to put an end to this reckless shutdown. 
Only one bill can re-open all of the government today, and it is time 
for the House to vote on the straightforward, Senate-passed funding 
bill.
    Conducting this hearing with full knowledge that someone from the 
EPA would be unable to attend is irresponsible and demonstrates a 
complete disregard for the important work that they do. This is 
particularly worrisome in regards to the proposed Pebble Mine near 
Bristol Bay, Alaska, which is of considerable interest to my home State 
of Massachusetts.
    The EPA is currently conducting the Bristol Bay Watershed 
Assessment, and early drafts have found that large-scale mining in the 
Bristol Bay Watershed could cause irreparable damage to the fisheries 
and the jobs they support. The watershed assessment found that even in 
a best case scenario, mining would destroy 87 miles of salmon streams 
and 2,500 acres of wetlands. The Bristol Bay Watershed is home to the 
world's most valuable wild salmon fishery, valued at over $1.5 billion 
annually and supports an estimated 12,000 jobs. Even fishermen from my 
home State of Massachusetts make the journey to Alaska each year to 
fish during the 3-month salmon season.
    In Massachusetts, we have seen the devastating impacts of the 
decline of the fishing industry. The proposed mine near Bristol Bay 
would present an unavoidable and unacceptable risk to the salmon 
fishery in Alaska and the thousands of people who depend on it for 
their family's livelihood. Fishermen from across Massachusetts and New 
England stand in strong opposition to large-scale mining in Bristol Bay 
because it could cause undue harm to a community that has a long and 
proud history of commercial fishing.
    I urge my colleagues to ask the Speaker to bring the Senate CR to 
the floor for a vote so we can bring an end to this Republican shutdown 
so that agencies like the EPA can get back to work and provide 
certainty to the many people who depend on the Bristol Bay fisheries to 
support their families.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

<bullet> Alaska Legislature Letter

<bullet> Mr. Van Vactor's Attachments that Accompanied his 
            Testimony:

  1.  Institute of Social and Economic Research, University of 
            Alaska Anchorage, The Economic Importance of the 
            Bristol Bay Salmon Industry (2013)
  2.  Bristol Bay Regional Vision Statement (2011)
  3.  Riley/Yocom, Mining the Pebble Deposit: Issues of 404 
            Compliance and Unacceptable Environmental Impacts 
            Executive Summary (2011)

<bullet> Mr. Fogels' Attachments that Accompanied his 
            Testimony:

  1.  IMCC Resolution Federalism Funding
  2.  IMCC Resolution Financial Responsibility Bonding
  3.  IMCC WGA Resolution on Bonding

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
